   Pension Benefit Guaranty Corporation
        Office of Inspector General
                  Audit Report




Audit of the Pension Benefit Guaranty Corporation’s
  Fiscal Year 2013 and 2012 Financial Statements




                November 15, 2013
                                     AUD-2014-2/FA-13-93-1
This page intentionally left blank.
              Audit of the Pension Benefit Guaranty Corporation’s
               Fiscal Year 2013 and 2012 Financial Statements

                    Audit Report AUD-2014-2 / FA-13-93-1



                                   Contents


Section I:      Independent Auditor’s Report

Section II:     Pension Benefit Guaranty Corporation’s
                Fiscal Year 2013 and 2020 Financial Statements

Section III:    Management Comments
This page intentionally left blank.
          Audit of the Pension Benefit Guaranty Corporation’s
           Fiscal Year 2013 and 2012 Financial Statements

                Audit Report AUD-2014-2 / FA-13-93-1


                               Acronyms

AED         Asset Evaluation Division
ASD         Actuarial Services Division
BAPD        Benefits and Payment Department
CCRM        Configuration, Change and Release Management
CFR         Code of Federal Regulations
FMFIA       Federal Managers’ Financial Integrity Act of 1982
FY          Fiscal Year
IT          Information Technology
IPVFB       Integrated Present Value of Future Benefits
NIST SP     National Institute of Standards and Technology Special Publication
OMB         Office of Management and Budget
PBGC        Pension Benefit Guaranty Corporation
PPS         Premium and Practitioner System
PRAD        Policy, Research and Analysis Department
PVFB        Present Value of Future Benefits
PVMG        Patch and Vulnerability Management Group
SA&A        Security Assessment and Authorization
TAS         Trust Accounting System
TPD         Trust Processing Division
U.S.C.      United States Code
U.S.        United States of America
This page intentionally left blank.
Audit of the Pension Benefit Guaranty Corporation’s

 Fiscal Year 2013 and 2012 Financial Statements



      Audit Report AUD-2014-2 / FA-13-93-1




                    Section I


       Independent Auditor’s Report
This page intentionally left blank.
                                                                                      CliftonLarsonAllen LLP
                                                                                      www.cliftonlarsonallen.com




                                        INDEPENDENT AUDITORS’ REPORT 

 
To the Board of Directors, Management  
  and the Inspector General of the  
Pension Benefit Guaranty Corporation 
 
 
In  our  audits  of  the  Single‐Employer  and  Multiemployer  Funds  administered  by  the  Pension  Benefit 
Guaranty Corporation (PBGC or the Corporation) for fiscal years (FY) 2013 and 2012, we found: 
 
      The financial statements are presented fairly, in all material respects, in accordance with accounting 
         principles generally accepted in the United States of America (U.S.); 
      PBGC did not have effective internal control over financial reporting; and 
      One instance of noncompliance with certain provisions of laws and regulations tested. 
 
The  following  sections  and  Exhibits  discuss  in  more  detail:  (1)  these  conclusions,  (2)  other  information 
included  with  the  financial  statements,  (3)  management’s  responsibility,  (4)  our  responsibility,  (5)  the 
current status of prior year findings, and (6) management’s response to findings. 
 
Reports on the Financial Statements and Internal Control 
 
We  have  audited  the  accompanying  financial  statements  of  the  Pension  Benefit  Guaranty  Corporation 
(PBGC),  which  comprise  the  financial  position  of  the  Single‐Employer  and  Multiemployer  Funds 
administered by the PBGC as of September 30, 2013 and 2012, and the results of their operations and cash 
flows  for  the  years  then  ended,  and  the  related  notes  to  the  financial  statements.  The  objective  of  our 
audits was to express an opinion on the fairness of these financial statements. We have also audited PBGC’s 
internal control over financial reporting as of September 30, 2013.  
 
Management’s Responsibility 
 
PBGC management is responsible for the (1) preparation and fair presentation of these financial statements 
in accordance with accounting principles generally accepted in the U.S.; (2) preparation and presentation of 
other  information  in  documents  containing  the  audited  financial  statements  and  auditors’  report,  and 
consistency  of  that  information  with  the  audited  financial  statements;  (3)  design,  implementation,  and 
maintenance  of  internal  control  relevant  to  the  preparation  and  fair  presentation  of  financial  statements 
that are free from material misstatement, whether due  to fraud or error, including to provide reasonable 
assurance that the broad control objectives of FMFIA are met; and (4) compliance with other applicable laws 
and  regulations.  PBGC  management  evaluated  the  effectiveness  of  PBGC’s  internal  control  over  financial 
reporting  as  of  September  30,  2013  based  on  criteria  established  under  the  Federal  Managers’  Financial 
Integrity  Act  of  1982  (FMFIA).  PBGC  management’s  assertion  based  on  its  evaluation  is  included  in  the 
Annual Report. 




                                                           1 
Auditors’ Responsibility 
 
Our  responsibility  is  to  express  an  opinion  on  these  financial  statements  and  an  opinion  on  the  PBGC’s 
internal  control  over  financial  reporting  based  on  our  audits.  We  conducted  our  audit  of  the  financial 
statements  in  accordance  with  auditing  standards  generally  accepted  in  the  U.S.  and  the  standards 
applicable  to  the  financial  audits  contained  in  Government  Auditing  Standards,  issued  by  the  Comptroller 
General of the United States. We conducted our audit of internal control over financial reporting referred to 
above  in  accordance  with  attestation  standards  established  by  the  American  Institute  of  Certified  Public 
Accountants  and  the  standards  applicable  to  audits  of  internal  control  contained  in  Government  Auditing 
Standards.  Those  standards  require  that  we  plan  and  perform  the  audits  to  obtain  reasonable  assurance 
about  whether  the  financial  statements  are  free  from  material  misstatement,  and  that  effective  internal 
control over financial reporting was maintained in all material respects, respectively. We also conducted our 
audits  in  accordance  with  OMB  Bulletin  No.  14‐02,  Audit  Requirements  for  Federal  Financial  Statements, 
(OMB Bulletin 14‐02). 
 
In  order  to  fulfill  these  responsibilities,  we  (1)  obtained  an  understanding  of  PBGC  and  its  operations, 
including  its  internal  control  over  financial  reporting;  (2)  assessed  the  risk  of  financial  statement 
misstatement  and  the  risk  that  a  material  weakness  exists  in  internal  control  over  financial  reporting;  
(3)  evaluated  the  design  and  operating  effectiveness  of  internal  control  based  on  the  assessed  risk;  
(4)  considered  PBGC’s  process  for  evaluating  and  reporting  on  internal  control  under  FMFIA;  (5)  tested 
compliance  with  certain  provisions  of  laws  and  regulations;  (6)  examined,  on  a  test  basis,  evidence 
supporting  the  amounts  and  disclosures  in  the  financial  statements;  (7)  evaluated  the  appropriateness  of 
the  accounting  policies  used  and  the  reasonableness  of  significant  accounting  estimates  made  by 
management;  (8)  evaluated  the  overall  presentation  of  the  financial  statements;  (9)  read  the  other 
information included with the financial statements in order to identify material inconsistencies, if any, with 
the audited financial statements; and (10) performed such other procedures as we considered necessary in 
the  circumstances.  We  believe  that  the  audit  evidence  we  have  obtained  is  sufficient  and  appropriate  to 
provide a basis for our opinions. 
 
We did not evaluate all internal controls relevant to operating objectives as broadly established by FMFIA, 
such as those controls relevant to preparing statistical reports and ensuring efficient operations. We limited 
our internal control testing to testing controls over financial reporting. Our internal control testing was for 
the  purpose  of  expressing  an  opinion  on  the  effectiveness  of  internal  control  over  financial  reporting  and 
may not be sufficient for other purposes. 
 
Definition of Internal Control and Inherent Limitations 
 
An entity’s internal control over financial reporting is a process effected by those charged by governance, 
management,  and  other  personnel,  the  objectives  of  which  are  to  provide  reasonable  assurance  that  
(1)  transactions  are  properly  recorded,  processed,  and  summarized  to  permit  the  preparation  of  financial 
statements  in  accordance  with  accounting  principles  generally  accepted  in  the  U.S.;  (2)  assets  are 
safeguarded  against  loss  from  unauthorized  acquisition,  use,  or  disposition;  and  (3)  transactions  are 
executed  in  accordance  with  laws  and  regulations  that  could  have  a  direct  and  material  effect  on  the 
financial statements. 
 
Because  of  inherent  limitations  in  internal  control,  misstatements  due  to  error  or  fraud,  losses,  or 
noncompliance  may  nevertheless  occur  and  not  be  detected.  We  also  caution  that  projecting  our  audit 



                                                           2 
results to future periods is subject to the risk that controls may become inadequate because of changes in 
conditions or that the degree of compliance with controls may deteriorate.  
 
Opinion on the Financial Statements 
 
In  our  opinion,  the  financial  statements  referred  to  above  present  fairly,  in  all  material  respects,  the 
financial position of the Single‐Employer and Multiemployer Program Funds administered by the PBGC as of 
September 30, 2013 and 2012, and the results of their operations and cash flows for the years then ended, 
in accordance with accounting principles generally accepted in the U.S. 
 
Emphasis of Matter 
 
By  law,  PBGC’s  Single‐Employer  and  Multiemployer  Program  Funds  must  be  self‐sustaining.  As  of  
September 30, 2013, PBGC reported in its financial  statements net deficit  positions (liabilities in excess of 
assets)  in  the  Single‐Employer  and  Multiemployer  Program  Funds  of  $27.4  billion  and  $8.3  billion, 
respectively. As discussed in Note 9 to the financial statements, loss exposure for the Single‐Employer and 
Multiemployer Programs that are reasonably possible as a result of unfunded vested benefits are estimated 
to  be  $292  billion  and  $37  billion,  respectively.  Management  calculated  the  Single‐Employer  reasonably 
possible exposure based on the most recent data available from filings and submissions for plan years ended 
on or after December 31, 2011 and adjusted the value reported for liabilities to December 31, 2012 using 
actuarial assumptions. PBGC did not make a subsequent adjustment for economic conditions that occurred 
between  December  31,  2012  and  September  30,  2013,  and  as  a  result  the  exposure  to  loss  for  the  
Single‐Employer Program, as of September 30, 2013, could be substantially different. In addition, PBGC’s net 
deficit  and  long‐term  viability  could  be  further  impacted  by  losses  from  plans  classified  as  reasonably 
possible  (or  from  other  plans  not  yet  identified  as  potential  losses)  as  a  result  of  deteriorating  economic 
conditions,  the  insolvency  of  a  large  plan  sponsor,  or  other  factors.  PBGC  has  been  able  to  meet  its  
short‐term  benefit  obligations;  however,  as  discussed  in  Note  1  to  the  financial  statements,  management 
believes that neither program at present has the resources to fully satisfy PBGC’s long‐term obligations to 
plan participants. Our opinion is not modified with respect to this matter.  
 
Opinion on Internal Control over Financial Reporting 
 
In  our  opinion,  because  of  the  effect  of  material  weaknesses  described  in  Exhibit  I,  the  PBGC  has  not 
maintained  effective  internal  control  over  financial  reporting  as  of  September  30,  2013.  Our  opinion  on 
internal  control  is  based  on  criteria  established  under  31  U.S.C.  3512  (c),  (d),  commonly  known  as  the 
FMFIA. 
 
A deficiency in internal control exists when the design or operation of a control does not allow management 
or  employees,  in  the  normal  course  of  performing  their  assigned  functions,  to  prevent,  or  detect  and 
correct,  misstatements  on  a  timely  basis.  A  material  weakness  is  a  deficiency,  or  a  combination  of 
deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of 
the  PBGC’s  financial  statements  will  not  be  prevented,  or  detected  and  corrected  on  a  timely  basis.  We 
consider the deficiencies listed below and described in Exhibit I to be material weaknesses: 
 
     1. Benefits Administration and Payment Department (BAPD) Management and Oversight 
     2. Entity‐wide Security Program Planning and Management 
     3. Access Controls and Configuration Management 
 


                                                            3 
A significant deficiency is a deficiency, or combination of deficiencies, in internal control that is less severe 
than a material weakness, yet important enough to merit attention by those charged with governance. We 
consider the following deficiency, which is described in Exhibit I, to be a significant deficiency: 
 
     4. Integrated Financial Management Systems 
 
Other Information 
 
The  Chair’s  message,  Director’s  message,  year  in  review,  financial  statement  highlights,  management’s 
discussion  and  analysis,  management  representation,  improper  payment  reporting,  actuarial  valuation, 
letter  of  the  Inspector  General,    management’s  response  and  organization  contains  a  wide  range  of  data, 
some of which is not directly related to the financial statements. This information is presented by PBGC for 
use  by  readers  of  the  annual  report  and  is  not  a  required  part  of  the  financial  statements.    Also,  this 
information  has  not  been  subjected  to  the  auditing  procedures  applied  in  the  audit  of  the  financial 
statements, and accordingly, we do not express an opinion or provide any assurance on it. 
                                                              
         REPORT ON COMPLIANCE BASED ON AN AUDIT OF FINANCIAL STATEMENTS PERFORMED IN 
                            ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS 
 
Report on Compliance with Laws and Regulations  
 
In  connection  with  our  audits,  we  considered  PBGC’s  compliance  with  certain  provisions  of  laws  and 
regulations. We performed tests of the PBGC’s compliance with certain provisions of laws and regulations, 
noncompliance  with  which  could  have  a  direct  and  material  effect  on  the  determination  of  financial 
statement  amounts.  However,  providing  an  opinion  on  compliance  with  those  provisions  was  not  an 
objective of our audits, and accordingly, we do not express such an opinion. The results of our tests for the 
year  ended  September  30,  2013,  disclosed  one  instance  of  noncompliance  to  be  reported  in  accordance 
with Government Auditing Standards, issued by the Comptroller General of the United States. 
 
In  material  weakness  number  one,  we  noted  instances  where  PBGC  failed  to  determine  the  fair  market 
value of plan assets at  date of  plan  termination as required by regulation. Title 29 of  the  Code of Federal 
Regulation  §4044.41(b),  General  valuation  rules,  states:  “Plan  assets  shall  be  valued  at  their  fair  market 
value, based on the method of valuation that most accurately reflects such fair market value.” 
 
Management’s Responsibility 

Management is responsible for ensuring PBGC’s compliance with applicable laws and regulations. 
 
Auditors’ Responsibility 
 
We  are  responsible  for  (1)  testing  compliance  with  certain  provisions  of  laws  and  regulations  that  have  a 
direct  and  material  effect  on  the  financial  statements  and  applicable  laws  for  which  OMB  Bulletin  14‐02 
requires testing, and (2) applying certain limited procedures with respect to other information included with 
the financial statements. 
 
We  did  not  test  compliance  with  all  laws  and  regulations  applicable  to  PBGC.  We  limited  our  tests  of 
compliance  to  certain  provisions  of  laws  and  regulations  that  have  a  direct  and  material  effect  on  the 
financial  statements  and  those  required  by  OMB  Bulletin  14‐02  that  we  deemed  applicable  to  PBGC’s 


                                                            4 
financial  statements  for  the  fiscal  year  ended  September  30,  2013.  We  caution  that  noncompliance  with 
laws  and  regulations  may  occur  and  not  be  detected  by  these  tests  and  that  such  testing  may  not  be 
sufficient for other purposes.  
 
Purpose of the Report on Compliance with Laws and Regulations 
 
The purpose of the Report on Compliance with Laws and Regulations is solely to describe the scope of our 
testing of compliance with laws and regulations and the result of that testing, and not to provide an opinion 
on  the  PBGC’s  compliance.  This  report  is  an  integral  part  of  an  audit  performed  in  accordance  with 
Government  Auditing  Standards  in  considering  PBGC’s  compliance.  Accordingly,  this  report  is  not  suitable 
for any other purpose. 
 
Status of Prior Year’s Control Deficiencies and Noncompliance Issues 
 
We have reviewed the status of PBGC’s corrective actions with respect to the findings included in the prior 
year’s  Independent  Auditors’  Report,  dated  November  14,  2012.  The  status  of  prior  year  findings  is 
presented in Exhibit II. 
 
Management’s Response to Findings  
 
Management’s response to the findings identified in our report is presented in Exhibit III. We did not audit 
PBGC’s response and, accordingly, we express no opinion on it. 
 


a
 
Calverton, Maryland 
November 15, 2013 




                                                         5 
                                                                                                             EXHIBIT I 


                                  PENSION BENEFIT GUARANTY CORPORATION 
                                       OPINION ON INTERNAL CONTROL 
                                             September 30, 2013 
 
 
Background 
        
PBGC protects the pensions of approximately 42 million workers and retirees in nearly 25 thousand private 
defined  benefit  pension  plans.  Under  Title  IV  of  the  Employee  Retirement  Income  Security  Act  of  1974, 
PBGC insures, subject to statutory limits, pension benefits of participants in covered private defined benefit 
pension  plans  in  the  United  States.  To  accomplish  its  mission  and  prepare  its  financial  statements,  PBGC 
relies  extensively  on  the  effective  operation  of  the  Benefits  Administration  and  Payment  Department 
(BAPD) and information technology (IT). Internal controls over these operations are essential to ensure the 
confidentiality, integrity, and availability of critical data while reducing the risk of errors, fraud, and other 
illegal acts. 
 
The establishment and implementation of the appropriate internal controls are critical to PBGC operations. 
Furthermore, reliable internal controls ensure that the programs achieve their intended results; resources 
are  used  consistent  with  agency  mission,  programs  and  resources  are  protected  from  waste,  fraud,  and 
mismanagement;  laws  and  regulations  are  followed;  and  reliable  and  timely  information  is  obtained, 
maintained,  reported,  and  used  for  decision‐making  as  stated  in  the  OMB  Circular  A‐123,  Management’s 
Responsibility for Internal Control. In order to mitigate operational and financial reporting risks to PBGC as a 
whole,  active  involvement  from  PBGC’s  senior  leadership  in  the  monitoring  and  response  to  such  risks  is 
warranted  on  a  continuous  basis.  Based  on  our  findings,  we  are  reporting  that  the  deficiencies  in  the 
following areas constitute three material weaknesses for FY 2013: 
   
     1. BAPD Management and Oversight  
     2. Entity‐wide Security Program Planning and Management 
     3. Access Controls and Configuration Management  
            
We are also reporting the deficiencies in the following area to be a significant deficiency for FY 2013: 
 
     4. Integrated Financial Management Systems 
            
The  serious  weaknesses  in  BAPD’s  internal  controls  such  as  inadequate  documentation  to  support  the 
benefit and liability calculations, errors in liability calculations and valuing plan assets, as well as the limited 
progress  of  mitigating  PBGC’s  systemic  IT  security  control  weaknesses,  create  an  environment  that  could 
lead  to  improper  application  of  benefits  to  plan  participations,  inaccurate  financial  reporting  and  fraud, 
waste, and abuse. 
   
1. BAPD Management and Oversight 
      
     BAPD  manages  the  termination  process  for  defined  benefit  plans,  provides  participant  services 
     (including calculation and payment of benefits) for PBGC‐trusteed plans, provides actuarial support for 
     PBGC, and carries out PBGC's responsibilities under settlement agreements. BAPD has several distinct 
     divisions  including  Trusteeship  Processing  Divisions  (TPDs),  the  Actuarial  Services  Division  (ASD),  and 
     the  newly  formed  Asset  Evaluation  Division  (AED).  The  TPDs  are  responsible  for  capturing  the 
     participant  data  for  benefit  determinations,  managing  the  benefit  payments  to  participants  and 


                                                           6 
                                                                                                               EXHIBIT I 


beneficiaries,  and  maintaining  the  pension  plan  and  participant  files  that  includes  underlying 
documentation used to support the calculation of benefit amounts for the participant and the pension 
liabilities recorded on PBGC financial statements. The AED will be responsible for ensuring that the plan 
asset  valuations  meet  the  regulatory  requirements  standard  for  determining  the  fair  market  value  of 
assets. The ASD is responsible for calculating the Present Value of Future Benefits (PVFB) liability, based 
on actuarial assumptions and methods. ASD uses the underlying documentation maintained by the TPD, 
as  well  as  mortality  tables  and  interest  rate  factors,  as  key  inputs  to  calculate  pension  plan  liabilities 
recorded on PBGC’s financial statements. 
 
In  response  to  weaknesses  previously  identified,  BAPD  implemented  corrective  actions  to  address 
control  weaknesses  within  its  department.  These  corrective  actions  consisted  of  modifying  the  BAPD 
operations  manual,  issuing  a  records  management  manual,  developing  staff  training  materials,  and 
updating  technical  reference  guides.  BAPD  also  took  steps  to  improve  its  operations  and  internal 
control processes over the PVFB liability. Furthermore, the BAPD Director restructured the department 
divisions  and  created  the  AED  to  better  align  staff  core  competencies  and  skills  with  the  intent  to 
mitigate operational and financial reporting risks. 
 
Even  with  these  corrective  actions,  BAPD  continues  to  have  control  weaknesses  that  increase  PBGC’s 
operational and financial reporting risks. These weaknesses are attributed to BAPD’s management and 
oversight  over  the  processes  needed  to  calculate  and  value  participant’s  benefits  and  the  related 
liabilities, as well as to value plan assets. Such weaknesses pose significant risks to PBGC’s operations 
including  accurate  calculation  of  plan  participants’  benefits,  accurate  financial  reporting,  and 
compliance with prescribed laws and regulations. During FY 2013, we continued to identify deficiencies 
in  BAPD  controls  that  included  errors  in  their  liability  calculations,  inadequate  documentation  to 
support the calculation of participants’ benefits and liabilities, and errors in valuing plan assets. 
 
Calculation of the Present Value of Future Benefits Liability 
 
We continued to identify errors in the calculation of participant benefits and the related PVFB liability. 
During our testing of the PVFB liability reported at June 30 and September 30, we noted: 
 
      errors  in  valuing  participant  benefits  and  associated  liability  that  were  caused  by  system 
          capability limitations or programming flaws; 
      archival  procedures  for  documentation  maintenance  in  place  at  the  time  of  certain  plan 
          terminations were not adequate; and 
      data entry errors and inaccurate use of plan data.  
 
These  long  standing  deficiencies  in  BAPD  processes  continue  to  impede  management’s  ability  to 
accurately  calculate  and  value  benefits  and  related  future  liabilities  for  some  participants.  Using  a 
statistically based sampling technique, we noted approximately 20% of the samples tested in which the 
liability calculated for a plan participant was either  overstated or understated. The  projected value of 
the  error  to  the  entire  PVFB  liability  of  approximately  $105  billion  at  September  30,  2013,  had  an 
estimated  range  of  approximately  $728  million  understatement  to  $414  million  overstatement  and  a 
point estimate of $157 million overstatement.  
 
In  addition,  BAPD’s  maintenance  of  underlying  documentation  used  to  support  the  calculation  of  the 
PVFB  continued  to  be  a  significant  challenge.  The  information  system  that  maintains  the  participant 
documentation needed to calculate benefits such as birth certificates, marriage certificates, participant 


                                                          7 
                                                                                                           EXHIBIT I 


    benefit applications, plan provisions, and salary data is the Image Viewer System. During our testing at 
    June 30 and September 30, BAPD was not able to provide the documentation needed to support liability 
    calculations  for  some  samples.  The  lack  of  appropriate  documentation  results  in  limited  physical  and 
    financial controls, and could lead to improper benefit payment and participant liability calculations by 
    PBGC.  As  a  result,  we  could  not  determine  whether  the  benefits  or  the  associated  liability  was 
    calculated properly for those selected samples at June 30 and September 30.  
     
    Last  year  we  reported  several  deficiencies  in  BAPD  related  to  documentation,  including  the  need  to 
    require  archival  of  source  documents,  implementation  of  controls  to  ensure  monitoring  and 
    enforcement  of  procedures  requiring  document  maintenance,  and  to  improve  the  training  of  persons 
    tasked with calculating and reviewing benefit determinations. These deficiencies have not yet been fully 
    corrected. 
     
    Because of errors in the liability calculations and the lack of supporting documentation, PBGC is at risk 
    for inaccurately valuing the plan liabilities reported in its financial statements. Also, these deficiencies 
    could  impact  PBGC  management’s  ability  to  provide  meaningful  and  accurate  information  to  its  key 
    stakeholders such as the plan participants, the Board, Congress, and OMB.  
     
    Valuation of Plan Assets and Benefits 
 
    BAPD has undertaken significant efforts to revalue assets for certain pension plans trusteed by PBGC. 
    These efforts have yet to be fully implemented and the internal control weaknesses continue to merit 
    focus.  
     
    The fair market value of a pension plan’s assets at the date a plan is terminated is an essential factor 
    needed  to  determine  the  retirement  benefit  amounts  owed  to  plan  participants.  BAPD’s  ineffective 
    oversight of contracted reviews of asset valuations in the past continued to pose significant risks to the 
    participants’  benefit  determinations.  In  FY  2013,  BAPD  hired  a  contractor  to  develop  new  plan  asset 
    valuation  procedures  for  the  newly  formed  AED.  As  a  test,  these  procedures  were  used  by  the 
    contractor  to  value  the  assets  of  two  terminated  plans.  The  contractor  evaluated  the  operating 
    effectiveness of its procedures and provided its assessment to BAPD management.  
     
    Currently,  BAPD  management  has  yet  to  conduct  an  independent  evaluation  of  the  contractor’s 
    procedures to determine their sufficiency and adequacy on valuing pension plan assets. Furthermore, 
    BAPD did not complete the re‐work of certain plan asset valuations based on its risk based approach to 
    determine  whether  participant’s  benefits  require  an  adjustment  in  FY  2013.  The  plan  asset  
    revaluations are expected to be completed in FY 2014. 
    Recommendations: We recommend that PBGC management: 
     
    Develop and/or implement the following: 
     
         improvements  to  BAPD  systems  used  to  calculate  benefits  and  liabilities  (Spectrum  and  the 
             Integrated Present Value of Futures Benefit Systems); 
         procedures to verify that future contracts for plan asset valuations clearly outline expectations 
             and deliverables in the statement of work. 
              
    Refine  BAPD  operating  policies  and  procedures  for  processing  plans  and  archiving  benefit  plan 
    documentation. 


                                                         8 
                                                                                                           EXHIBIT I 


   Improve training for all levels of staff tasked with the calculation of benefits and the PVFB as well as the 
   review of benefit determinations. 
    
2. Entity‐wide Security Program Planning and Management 
 
   In  prior  years,  we  reported  that  PBGC’s  entity‐wide  security  program  lacked  focus  and  a  coordinated 
   effort  to  adequately  resolve  control  deficiencies.  Though  progress  was  made  as  highlighted  below, 
   deficiencies persisted in FY 2013, which prevented PBGC from implementing effective security controls 
   to  protect  its  information  from  unauthorized  access,  modification,  and  disclosure.  An  entity‐wide 
   information  security  management  program  is  the  foundation  of  a  security  control  structure  and  is  a 
   reflection of senior management’s commitment to addressing security risks. The security management 
   program should establish a framework and a continuous cycle of activity for assessing risk, developing 
   and implementing effective security procedures, and monitoring the effectiveness of these procedures. 
    
   PBGC  has  now  established  the  foundation  for  implementing  a  more  effective  entity‐wide  security 
   program. The IT Security Architectural Analysis Recommendations Report dated June 19, 2013, provides 
   a blueprint for implementing entity‐wide controls and addressing PBGC’s security program’s strengths, 
   weaknesses,  threats,  and  opportunities.  PBGC  also  completed  work  on  a  long‐standing  weakness 
   relating to Interconnection Security Agreements with all external organizations whose systems connect 
   with  PBGC  systems.  While  the  IT  Security  Architectural  Analysis  Report  represents  progress,  much 
   remains to be done to implement and ensure adequate operation of controls. PBGC is still in the process 
   of  implementing  a  continuous  monitoring  program  through  the  implementation  of  automated  and 
   manual  tools,  processes  and  procedures.  Without  a  well‐designed  and  fully  implemented  information 
   security  management  program,  there  is  increased  risk  that  security  controls  are  inadequate; 
   responsibilities  are  unclear,  misunderstood,  and  improperly  implemented;  and  controls  are 
   inconsistently  applied  or  no  longer  operate  as  intended.  Such  conditions  may  lead  to  insufficient 
   protection of sensitive or critical resources and disproportionately high expenditures for controls over 
   low‐risk resources. 
    
   The specific weaknesses we found that contributed to the material weakness are as follows: 
    
         Security Assessments and Authorizations (SA&As) for several major applications not completed. 
             SA&A  serves  as  a  control  to  verify  and  validate  that  system  security  controls  are  properly 
             implemented  and  working  correctly.  While  a  majority  of  SA&As  have  been  completed  by  the 
             Bureau  of  Public  Debt  through  an  interagency  agreement  with  PBGC,  this  long‐standing 
             weakness is critical to complete. 
         Less than one‐half of security controls for general support systems implemented. Using NIST SP 
             800‐53,  Recommended  Security  Controls  for  Federal  Information  Systems,  PBGC  identified  208 
             common  security  controls.  PBGC  stated  that  93  of  these  controls  have  been  implemented. 
             While PBGC anticipates completion of their corrective actions in early 2015, as of the end of FY 
             2013,  they  have  not  documented  the  details  of  the  specific  actions  needed  to  complete  and 
             confirm the design, implementation, and operating effectiveness of the remaining 115 identified 
             common security controls. 
         Security  infrastructure  design  and  implementation  weaknesses  continue.  PBGC’s  ability  to 
             effectively  implement  common  security  controls  across  its  systems  and  applications  was 
             adversely  affected  because  there  are  weaknesses  in  its  infrastructure  design  and  deployment 
             strategy for systems and applications. 
         Information security policies and procedures not fully disseminated and implemented. PBGC is 


                                                         9 
                                                                                                         EXHIBIT I 


            not able to effectively enforce compliance for all needed security awareness training. PBGC will 
            be  using an  automated  tool, Talent  Management System ,  to  provide security awareness and 
            role‐based training. 
     
    Recommendations: We recommend that PBGC management: 
     
    Complete the process to validate the completion of SA&A packages for all major applications.  
     
    Develop and implement a well‐designed security management program that will provide security to the 
    information and information systems that support the operations and assets of PBGC, including those 
    managed by contractors or other federal agencies.  
     
    Complete  the  development  and  implementation  of  the  redesign  of  PBGC’s  IT  infrastructure  and  the 
    procurement  and  implementation  of  technologies  to  support  a  more  coherent  approach  to  providing 
    information services and information system management controls. 
     
    Effectively communicate to key decision‐makers the state of PBGC’s IT infrastructure and environment 
    to facilitate the prioritization of resources to address fundamental weaknesses.  
 
3. Access Controls and Configuration Management 
 
   Although  access  controls  and  configuration  management  controls  are  an  integral  part  of  an  effective 
   information  security  management  program,  access  controls  remain  a  systemic  problem  throughout 
   PBGC.  PBGC’s  past  decentralized  approach  to  system  development,  system  deployments,  and 
   configuration  management  created  an  environment  that  lacks  a  cohesive  structure  in  which  to 
   implement  controls  and  best  practices.  Weaknesses  in  the  IT  environment  contributed  significantly  to 
   deficiencies in system configuration, segregation of duties, role‐based access controls, and monitoring.  
    
   PBGC  realizes  these  challenges  and  is  implementing  a  disciplined  and  integrated  approach  through 
   development  of  Configuration,  Change  and  Release  Management  (CCRM)  Process  and  Procedures 
   consistent with NIST SP 800‐53, Rev 3. PBGC has developed and is implementing additional policies and 
   procedures, including deploying technical and configuration management tools. PBGC is in the process 
   of  procuring,  implementing  and  deploying  technical  tools  to  better  manage  configuration  of  common 
   operating platforms. Once these tools are fully operational in the infrastructure, they will help ensure 
   that controls related to the configuration of infrastructure components remain consistent and provide 
   alerting capabilities when components are changed. Other complementary processes, such as the Patch 
   and Vulnerability Management Group (PVMG, formerly the Tiger Team) focused on system scanning and 
   vulnerability  management,  supported  PBGC’s  capability  to  carefully  document  and  validate  system 
   vulnerabilities,  and  provided  evidence  as  to  the  operating  effectiveness  of  some  technical  common 
   controls.  
    
   Without  appropriate  access  and  configuration  management  controls,  PBGC  does  not  have  assurance 
   that  financial  information  and  financial  assets  are  adequately  safeguarded  from  inadvertent  or 
   deliberate misuse, fraudulent use, improper disclosure, or destruction. 
   Among the specific weaknesses we found that contributed to the material weakness were due to a lack 
   of following: 
    



                                                        10 
                                                                                                           EXHIBIT I 


            Infrastructure  and  Configuration  Management.  PBGC  configuration  management  controls  are 
             labor intensive and ineffective. PBGC’s three IT environments (develop, test, and production) do 
             not share common server configurations.  
            Security  configuration  settings.  Controls  are  not  consistently  applied  to  ensure  that 
             authentication  parameters  for  general  support  systems  and  applications  comply  with  PBGC’s 
             Information Security Policy. 
            Segregation  of  duties‐restriction  of  access  to  production  environment.  Some  developers  have 
             access  to  the  production  environment,  which  exposes  PBGC  to  the  risk  of  unauthorized 
             modification of the application and circumvention of critical controls, and unnecessary access to 
             sensitive data. 
            Recertification of user and system access. The OIT re‐certification process remains incomplete 
             and does not include all user and system access accounts. 
            Management  of  user,  generic  and  dormant  accounts.  PBGC’s  policies  and  practices  have  not 
             effectively  restricted  the  addition  of  unnecessary  and  generic  accounts  to  systems  in 
             production.  
            Business  process  controls.  The  Policy,  Research  and  Analysis  Department  (PRAD)  uses 
             spreadsheets  in  the  determination  of  the  interest  rate  factor  used  for  calculating  PBGC’s 
             liabilities  for  future  benefits, that  do  not  have  adequate  controls  over  access  to  data, 
             information security and changes. A contributing factor that sets the stage for this deficiency is 
             PRAD’s  lack  of  adequate  documentation  of  its  process  and  procedures  to  ensure  that 
             spreadsheet calculations and other activities can be repeated by unassociated officials.  
    
   Recommendations: We recommend that PBGC management: 
    
   Develop and implement the following:  
    
        a coherent strategy for correcting IT infrastructure deficiencies. 
        a  framework  for  implementing  common  security  controls  and  mitigating  the  systemic  issues 
            related to access control by strengthening system configurations and user account management 
            for all of PBGC’s information systems. 
             
   Implement  controls  to  remedy  vulnerabilities  noted  in  key  databases  and  applications  such  as 
   weaknesses  in  configuration,  roles,  privileges,  auditing,  file  permissions  and  operating  system  access. 
   Also  implement  controls  to  remedy  weaknesses  in  the  deployment  of  servers,  applications,  and 
   databases in the development, test and production environments.  
    
   Complete the recertification processes for all user and system accounts.  
    
   Complete  an  inventory  of  spreadsheets  used  by  PRAD  in  its  determination  of  the  interest  rate  factor 
   used  for  calculating  PBGC’s  liabilities  for  future  benefits.  For  these  spreadsheets  implement  controls 
   over access to the data, information security and change to the spreadsheets.  
    
4. Integrated Financial Management Systems 
 
   The risk of inaccurate, inconsistent, and redundant data exists because PBGC lacks a single integrated 
   financial  management  system.  Part  of  the  system  requires  manipulation  and  the  use  of  manual 
   procedures to upload: (1) plan PVFB liabilities; (2) the commingled funds monthly trial balance summary 
   journal; and (3) the monthly journal entry for the premium financial activity. 


                                                         11 
                                                                                                            EXHIBIT I 


    OMB  Circular  A‐127,  Financial  Management  Systems,  requires  that  federal  financial  management 
    systems  be  designed  to  provide  for  effective  and  efficient  interrelationships  between  software, 
    hardware,  personnel,  procedures,  controls,  and  data  contained  within  the  systems.  OMB’s  Core 
    Financial System Requirements establishes mandatory financial management system performance goals 
    applicable  to  all  financial  management  systems.  These  goals  include  providing  timely,  reliable,  and 
    complete  financial  management  information  for  decision  making  at  all  levels  of  government;  and 
    providing for “one‐time” data entry and reuse of transaction data to support downstream integration, 
    interfacing, or business and reporting requirements. 
 
    If  managed  effectively,  IT  investments  can  have  a  dramatic  impact  on  an  organization’s  performance 
    and accountability. If not correctly managed, they can result in wasteful spending and lost opportunities 
    for  achieving  mission  goals  and  improving  mission  performance.  PBGC  had  several  false  starts  in 
    modernizing its systems and applications that either have been abandoned (such as the suspension of 
    work on the Premium and Practitioner System to replace the Premium Accounting System or have been 
    ineffective in leading to the integration of its financially significant systems.  
     
    PBGC has made progress in implementing an integrated financial system. However, the implementation 
    has not been completed.  The specific  weaknesses that contributed to  the significant deficiency are as 
    follows: 
     
          Implementation  of  the  Premium  and  Practitioner  System  (PPS).  Major  work  remains  to  be 
             completed  to  provide  PBGC  with  integrated  financial  management  capabilities.  By  December 
             2013,  PBGC  plans  to  implement  the  Premium  and  Practitioner  System.  With  PPS,  the 
             Corporation  will  be  integrated  with  the  Oracle  eBusiness  Suite  COTS  solution  used  for  PBGC's 
             Consolidated Financial Systems. 
          Lack of automated interface. Manual intervention is required to import the IPVFB plan liabilities 
             into the Trust Accounting System (TAS). Within TAS, the plan liabilities comma separated values 
             (CSV)  file  is  manually  uploaded  into  TAS  for  processing.  A  similar  procedure  is  applied  for 
             uploading the State Street Commingled Plans monthly trial balance summary journal into TAS.  
     
    PBGC’s  FY  2013  accomplishments  included  implementation  of  the  Trust  Accounting  System  (TAS),  an 
    externally‐hosted,  commercial‐off‐the‐shelf  investment  accounting  package.  PBGC  also  upgraded  the 
    current  PAS  by  completing  unique  enhancements  for  Pension  Protection  Act  legislative  changes  and 
    high  priority  functions.  PBGC  has  also  identified  areas  of  focus  for  its  future  financial  management 
    architecture, including a procurement system and an online budgeting system. 
          
    Recommendation: We recommend that PBGC management: 
     
    Implement and execute a plan to integrate its financial management systems in accordance with OMB 
    Circular A‐127.




                                                         12 
                                                                                                       EXHIBIT II 


                             PENSION BENEFIT GUARANTY CORPORATION 
                                  INDEPENDENT AUDITOR’S REPORT 
              STATUS OF PRIOR YEAR’S CONTROL DEFICIENCIES AND NONCOMPLIANCE ISSUES 
                                        September 30, 2013 
 
                                                                                             Status as of  
     Prior Year Condition          Status As Reported at September 30, 2012 
                                                                                         September 30, 2013 
1.   Benefit                 Material Weakness: PBGC has weaknesses in the  Repeated  as  a  Material 
     Administration  and  following:                                                   Weakness  number  1  and 
     Payment  Department   Calculation  of  the  Present  Value  of  Future  included in Exhibit I. 
     Management        and        Benefits Liability                                    
     Oversight                 Valuation of Plan Assets 
2.   Entity‐wide  Security  Material Weakness: PBGC has weaknesses in the  Repeated  as  a  Material 
     Program Planning and  following:                                                  Weakness  number  2  and 
     Management                PBGC had not completed SA&As for its major  included in Exhibit I. 
                                  applications. 
                               Weaknesses  in  PBGC’s  infrastructure  design 
                                  and  deployment  strategy  for  systems  and 
                                  applications  adversely  affected  its  ability  to 
                                  effectively  implement  common  security 
                                  controls across its systems and applications.  
3.   Access  Controls  and  Material  Weakness:  Weaknesses  in  the  IT  Repeated  as  a  Material 
     Configuration           contributed  to  deficiencies  in  system  Weakness  number  3  and 
     Management              configuration,  segregation  of  duties,  role‐based  included in Exhibit I. 
                             access controls, and monitoring. 
4.   Integration  Financial  Significant  Deficiency:  PBGC  lacks  a  single  Repeated  as  a  Significant 
     Management Systems  integrated  financial  management  system  which  Deficiency  and  included 
                             increases the risk of inaccurate, inconsistent and  in Exhibit I. 
                             redundant data. 
Compliance and Other Matters  
1. Noncompliance  with          Plan  assets  shall  be  based  on  the  method  of  Repeated          as       a 
   Title 29 of the Code of      valuation  that  most  accurately  reflects  such  fair  noncompliance violation. 
   Federal  Regulation          market value. 
   (C.F.R.),  Part  4044.41,     
   Subpart  (b),  General 
   valuation rules 




                                                        13 
This page intentionally left blank.
  Audit of the Pension Benefit Guaranty Corporation’s

   Fiscal Year 2013 and 2012 Financial Statements



        Audit Report AUD-2014-2 / FA-13-93-1




                     Section II


   Pension Benefit Guaranty Corporation’s
Fiscal Year 2013 and 2012 Financial Statements
This page intentionally left blank.
                            PENSION BENEFIT GUARANTY CORPORATION
                              STATEMENTS OF FINANCIAL POSITION


                                                                Single-Employer        Multiemployer         Memorandum
                                                                    Program              Program                Total

                                                                      September 30,      September 30,          September 30,
(Dollars in Millions)                                                2013     2012       2013    2012          2013     2012
ASSETS

Cash and cash equivalents                                       $4,303       $ 3,782     $74    $     25     $4,377   $ 3,807

Securities lending collateral (Notes 3 and 5)                     3,322        3,425        -           -     3,322     3,425

Investments, at market (Notes 3 and 5):
    Fixed maturity securities                                    47,196       48,950   1,632        1,767    48,828    50,717
    Equity securities                                            22,317       21,463        -           -    22,317    21,463
    Private equity                                                  1,228      1,339        -           -     1,228     1,339
    Real estate and real estate investment trusts                 2,373         878         -           -     2,373      878
    Other                                                             28         77         -           -       28        77
    Total investments                                            73,142       72,707   1,632        1,767    74,774    74,474



Receivables, net:
    Sponsors of terminated plans                                      60         41         -           -       60        41
    Premiums                                                        1,036      1,086        1          1      1,037     1,087
    Sale of securities                                               601       1,353        -           -      601      1,353
    Derivative contracts (Note 4)                                    276         83         -           -      276        83
    Investment income                                                436        452        9          12       445       464
    Other                                                              4          4        0           0         4         4
    Total receivables                                               2,413      3,019      10          13      2,423     3,032


Capitalized assets, net                                               47         40        3           2        50        42


Total assets                                                   $83,227       $82,973   $1,719   $1,807      $84,946   $84,780

The accompanying notes are an integral part of these financial statements.




                                                                1
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF FINANCIAL POSITION
                                                                 Single-Employer        Multiemployer         Memorandum
                                                                     Program              Program                Total

                                                                      September 30,       September 30,           September 30,
(Dollars in Millions)                                               2013      2012        2013    2012          2013      2012


LIABILITIES


Present value of future benefits, net (Note 6):
     Trusteed plans                                            $103,125 $ 103,126          $0 $        1    $103,125 $ 103,127
     Plans pending termination and trusteeship                    1,091         418          -          -      1,091       418
     Settlements and judgments                                       57          56          -          -        57         56
     Claims for probable terminations                               745        2,035         -          -       745      2,035
     Total present value of future benefits, net                105,018      105,635        0          1     105,018   105,636



Present value of nonrecoverable future
     financial assistance (Note 7):
     Insolvent plans                                                    -          -     1,352     1,388       1,352     1,388
     Probable insolvent plans                                           -          -    8,579      5,622      8,579      5,622
     Total present value of nonrecoverable
       future financial assistance                                      -          -     9,931     7,010       9,931     7,010


Payables, net:
     Derivative contracts (Note 4):                                 210          94          -          -       210         94
     Due for purchases of securities                              1,608        2,557         -          -      1,608     2,557
     Payable upon return of securities loaned                     3,322        3,425         -          -     3,322      3,425
     Unearned premiums                                              377         328        42        30         419        358
     Accounts payable and accrued expenses (Note 8):                 73          76         4          3         77         79
     Total payables                                               5,590        6,480       46        33       5,636      6,513

Total liabilities                                               110,608      112,115    9,977      7,044    120,585    119,159

Net position                                                    (27,381)     (29,142)   (8,258)   (5,237)   (35,639)   (34,379)

Total liabilities and net position                             $83,227 $ 82,973         $1,719    $1,807    $84,946 $ 84,780

The accompanying notes are an integral part of these financial statements.




                                                                    2
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION
                                                              Single-Employer                      Multiemployer                     Memorandum
                                                                 Program                             Program                            Total

                                                             For the Years Ended                 For the Years Ended              For the Years Ended
                                                               September 30,                       September 30,                     September 30,
(Dollars in Millions)                                         2013               2012               2013             2012           2013                   2012
UNDERWRITING

Income:
    Premium, net (Note 11)                                  $2,943           $    2,642            $110        $      92         $3,053         $        2,734
    Other                                                       38                   13               -                 0            38                     13
    Total                                                    2,981                2,655             110               92           3,091                 2,747
Expenses:
    Administrative                                             346                  360             25                20            371                    380
    Other                                                        5                       -            -                 0              5                      0
    Total                                                      351                  360             25                20            376                    380
Other underwriting activity:
    Losses from completed and
     probable terminations (Note 12)                           468                2,006               -                 -           468                  2,006
    Losses from insolvent and probable plans-
     financial assistance (Note 7)                                                                2,969            2,466           2,969                 2,466
    Actuarial adjustments (credits) (Note 6)                  (401)                 229              (5)               (6)         (406)                   223
    Total                                                       67                2,235           2,964            2,460           3,031                 4,695
Underwriting gain (loss)                                     2,563                   60          (2,879)           (2,388)          (316)                (2,328)


FINANCIAL:
Investment income (loss) (Note 13):
    Fixed                                                   (1,629)               4,699             (96)              91          (1,725)                4,790
    Equity                                                   4,157                4,073               -                 0          4,157                 4,073
    Private equity                                             272                   42               -                 0           272                     42
    Real estate                                                (70)                  (21)             -                 0           (70)                    (21)
    Other                                                       11                    (1)             -                 0             11                     (1)
    Total                                                    2,741                8,792             (96)              91           2,645                 8,883
Expenses:
    Investment                                                  88                   83               -                 0            88                     83
    Actuarial charges (Note 6):
     Due to expected interest                                3,388                3,927             44                54           3,432                 3,981
     Due to change in interest factors                          67               10,718               2              116             69                 10,834
    Total                                                    3,543               14,728             46               170           3,589                14,898
Financial loss                                                (802)               (5,936)          (142)              (79)         (944)                 (6,015)
Net income (loss)                                            1,761                (5,876)        (3,021)           (2,467)        (1,260)                (8,343)


Net position, beginning of year                            (29,142)              (23,266)        (5,237)           (2,770)       (34,379)               (26,036)
Net position, end of year                          $       (27,381)          $   (29,142)    $   (8,258)       $ (5,237)     $   (35,639)       $       (34,379)


The accompanying notes are an integral part of these financial statements.

                                                                                     3
  PENSION BENEFIT GUAR ANTY CORPORATION
STATEMENTS OF CASH FLOWS
                                                                   Single-Employer             Multiemployer               Memorandum
                                                                        Program                   Program                      Total
                                                                  For the Years Ended       For the Years Ended        For the Years Ended
 (Dollars in millions)                                               September 30,              September 30,                September 30,
____________________________________________________           ______2013 ____2012         ____2013 ____2012            ____2013     _2012
OPERATING ACTIVITIES:

  Premium receipts                                             $        3,042 $ 2,079       $ 121         $    92       $ 3,163 $ 2,171
  Interest and dividends received                                       2,310    2,122          61             58         2,371    2,180
  Cash received from plans upon trusteeship                                24      126           0              0             24      126
  Receipts from sponsors/non-sponsors                                      (1)     114           0              0             (1)     114
  Receipts from the missing participant program                             7        7           0              0              7        7
  Other receipts                                                            0        1           0              0              0        1
  Benefit payments – trusteed plans                                    (5,374) (5,333)           0              0        (5,374)  (5,333)
  Financial assistance payments                                                               (89)            (95)           (89)    (95)
  Settlements and judgments                                                0           0        0               0              0        0
  Payments for administrative and other expenses                        (418)      (413)      (27)            (20)         (445)    (433)
  Accrued interest paid on securities purchased                         (276)      (234)       (6)             (3)         (282)    (237)
Net cash provided (used) by operating activities (Note 15)              (686)    (1,531)       60              32          (626)  (1,499)

INVESTING ACTIVITIES:

  Proceeds from sales of investments                                88,821       77,382     1,398              667       90,219   78,049
  Payments for purchases of investments                            (87,614)     (77,090)   (1,409)            (679)     (89,023) (77,769)
  Net change in investment of securities lending collateral           (103)      (1,162)         0                0        (103)   (1,162)
  Net change in securities lending payable                             103         1,162         0                0         103     1,162
Net cash provided (used) by investing activities                     1,207           292       (11)             (12)      1,196       280

Net increase (decrease) in cash and cash equivalents                     521     (1,239)       49              20          570      (1,219)
Cash and cash equivalents, beginning of year                           3,782       5,021       25               5        3,807       5,026
Cash and cash equivalents, end of year                         $       4,303    $ 3,782    $   74     $        25      $ 4,377    $ 3,807

The above cash flows are for trusteed plans and do not include non-trusteed plans.
The accompanying notes are an integral part of these financial statements




                                                                   4
NOTES TO FINANCIAL STATEMENTS
September 30, 2013 and 2012


N O TE 1 : O RG ANI Z ATI O N AND P UR P O S E

The Pension Benefit Guaranty Corporation (PBGC or the Corporation) is a federal corporation created by
Title IV of the Employee Retirement Income Security Act of 1974 (ERISA) and is subject to the provisions
of the Government Corporation Control Act. Its activities are defined by ERISA, as that act has been
amended over the years. The Corporation insures the pension benefits, within statutory limits, of participants
in covered single-employer and multiemployer defined benefit pension plans.
ERISA requires that PBGC programs be self-financing. ERISA provides that the U.S. Government is not
liable for any obligation or liability incurred by PBGC.
For financial statement purposes, PBGC divides its business activity into two broad areas — “Underwriting
Activity” and “Financial Activity” — covering both single-employer and multiemployer program segments.
PBGC’s Underwriting Activity provides financial guaranty insurance in return for insurance premiums
(whether actually paid or not). Actual and expected probable losses that result from the termination of
underfunded pension plans are included in this category, as are actuarial adjustments based on changes in
actuarial assumptions, such as mortality. Financial Activity consists of the performance of PBGC’s assets and
liabilities. PBGC’s assets consist of premiums collected from defined benefit plan sponsors, assets from
distress or involuntarily terminated plans that PBGC has insured, and recoveries from the former sponsors of
those terminated plans. PBGC’s future benefit liabilities consist of those future benefits, under statutory
limits, that PBGC has assumed following distress or involuntary terminations. Gains and losses on PBGC’s
investments and changes in the value of PBGC’s future benefit liabilities (e.g., actuarial charges such as
changes in interest rates and expected interest) are included in this area.
As of September 30, 2013, the single-employer and multiemployer programs reported net positions of
$(27,381) million and $(8,258) million, respectively. The single-employer program had assets of
$83,227 million offset by total liabilities of $110,608 million, which include a total present value of future
benefits (PVFB) of about $105,018 million. As of September 30, 2013, the multiemployer program had
assets of $1,719 million offset by $9,931 million in present value of nonrecoverable future financial assistance.
Notwithstanding these deficits, the Corporation has sufficient liquidity to meet its obligations (liabilities) for a
significant number of years; however, neither program at present has the resources to fully satisfy PBGC’s
long-term obligations to plan participants.
PBGC’s $79,596 million of total investments (including cash and investment income receivable) represents
the largest component of PBGC’s Statements of Financial Position combined assets of $84,946 million at
September 30, 2013. This amount of $79,596 million (as compared to investments under management of
$77,066 million, as reported on page 40) reflects the fact that PBGC experiences a recurring inflow of
trusteed plan assets that have not yet been incorporated into the PBGC investment program. For total
investments (i.e., not the investment program), cash and fixed-income securities ($53,646 million) represent
67 percent of the total investments, while equity securities ($22,321 million) represent 28 percent of total
investments. Private market assets, real estate, and other investments ($3,629 million), represent five percent
of the total investments.




                                                         5
SINGLE-EMPLOYER AND MULTIEMPLOYER PROGRAM EXPOSURE
PBGC’s estimate of the total underfunding in single-employer plans was $292,207 million for those
sponsored by companies with credit ratings below investment grade and that PBGC classified as reasonably
possible of termination as of September 30, 2013. The comparable estimates for FY 2012 and FY 2011 were
$294,963 million and $227,117 million, respectively. These estimates are measured as of December 31 of the
previous year (see Note 9). For FY 2013, this exposure is concentrated in the following sectors:
manufacturing (primarily automobile/auto parts and primary and fabricated metals), transportation (primarily
airlines), services, and wholesale and retail trade.
PBGC estimates that, as of September 30, 2013, it is reasonably possible that multiemployer plans may
require future financial assistance in the amount of $36,718 million (see Note 9). The comparable estimates
for FY 2012 and FY 2011 were $26,809 million and $23,097 million, respectively. The increase in FY 2013 is
mainly due to the addition of 28 new plans to the reasonably possible inventory. The total reasonably
possible exposure is dominated by two large multiemployer plans. The sponsor of one plan, now with net
liability of $20,186 million, is in the “transportation, communication, and utilities” industry category; the
other, now with net liability of $5,781 million, is in the “agriculture, mining, and construction” industry
category.
There is significant volatility in plan underfunding and sponsor credit quality over time, which makes long-
term estimation of PBGC’s expected claims difficult. This volatility, and the concentration of claims in a
relatively small number of terminated plans, have characterized PBGC’s experience to date and will likely
continue. Among the factors that will influence PBGC’s claims going forward are economic conditions
affecting interest rates, financial markets, and the rate of business failures.
PBGC’s sources of information on plan underfunding are the most recent Section 4010 and PBGC premium
filings, and other submissions to the Corporation. PBGC publishes Table S-49, “Various Measures of
Underfunding in PBGC-Insured Plans,” in its Pension Insurance Data Tables where the limitations of the
estimates are fully and appropriately described.
Under the single-employer program, PBGC is liable for the payment of guaranteed benefits with respect only
to underfunded terminated plans. An underfunded plan may terminate only if PBGC or a bankruptcy court
finds that one of the four conditions for a distress termination, as defined in ERISA, is met or if PBGC
involuntarily terminates a plan under one of five specified statutory tests. The net liability assumed by PBGC
is generally equal to the present value of the future benefits payable by PBGC less amounts provided by the
plan’s assets and amounts recoverable by PBGC from the plan sponsor and members of the plan sponsor’s
controlled group, as defined by ERISA.
Under the multiemployer program, if a plan becomes insolvent, it receives financial assistance from PBGC to
allow the plan to continue to pay participants their guaranteed benefits. PBGC recognizes assistance as a loss
to the extent that the plan is not expected to be able to repay these amounts from future plan contributions,
employer withdrawal liability or investment earnings. Since multiemployer plans do not receive PBGC
assistance until fully insolvent, financial assistance is almost never repaid; for this reason such assistance is
fully reserved.




                                                        6
N O TE 2 : S I G NI F I CAN T ACCO UN TI NG P O LI CI E S

BASIS OF PRESENTATION
The accompanying financial statements have been prepared in accordance with accounting principles
generally accepted in the United States of America (U.S. GAAP). The preparation of the financial statements
in conformity with U.S. GAAP requires management to make estimates and assumptions that affect the
reported amounts of assets and liabilities and disclosure of contingent assets and liabilities at the date of the
financial statements and the reported amounts of revenues and expenses during the reporting period.
Estimates and assumptions may change over time as new information is obtained or subsequent
developments occur. Actual results could differ from those estimates.

RECENT ACCOUNTING DEVELOPMENTS
During FY 2012, PBGC implemented FASB Accounting Standards update No. 2011-04, Fair Value
Measurement (Topic 820), Amendments to Achieve Common Fair Value Measurement and Disclosure Requirements in
U.S. GAAP and International Financial Reporting Standards (IFRSs). This Update includes disclosure of the
valuation techniques to price Level 3 fair value measurements, as well as disclosure of the sensitivity of
different inputs into the valuation process. In addition, PBGC implemented FASB Accounting Standards
Update No. 2011-03, Transfers and Servicing (Topic 860), Reconsideration of Effective Control for Repurchase
Agreements. This Update, effective in FY 2012, addresses the rescission of financial reporting disclosure
requirements to eliminate the collateral maintenance implementation guidance. See Note 3 for disclosures of
Repurchase Agreements.

VALUATION METHOD
A primary objective of PBGC’s financial statements is to provide information that is useful in assessing
PBGC’s present and future ability to ensure that its plan beneficiaries receive benefits when due.
Accordingly, PBGC values its financial assets at estimated fair value, consistent with the standards for
pension plans contained in the FASB Accounting Standards Codification Section 960, Defined Benefit Pension
Plans. PBGC values its liabilities for the present value of future benefits and present value of nonrecoverable
future financial assistance using assumptions derived from market-based (fair value) annuity prices from
insurance companies, as described in the Statement of Actuarial Opinion. As described in Section 960, the
assumptions are “those assumptions that are inherent in the estimated cost at the (valuation) date to obtain a
contract with an insurance company to provide participants with their accumulated plan benefits.” Also, in
accordance with Section 960, PBGC selects assumptions for expected retirement ages and the cost of
administrative expenses in accordance with its best estimate of anticipated experience.
The FASB Accounting Standards Codification Section 820, Fair Value Measurements and Disclosures, defines fair
value, establishes a framework for measuring fair value in U.S. GAAP, and expands disclosures about fair
value measurements. Section 820 applies to accounting pronouncements that require or permit fair value
measurements.

REVOLVING AND TRUST FUNDS
PBGC accounts for its single-employer and multiemployer programs’ revolving and trust funds on an accrual
basis. Each fund is charged its portion of the benefits paid each year. PBGC includes totals for both the
revolving and trust funds for presentation purposes in the financial statements; however, the single-employer
and multiemployer programs are separate programs by law and, therefore, PBGC also reports them
separately.

                                                        7
ERISA provides for the establishment of the revolving fund where premiums are collected and held. The
assets in the revolving fund are used to cover deficits incurred by plans trusteed and to provide funds for
financial assistance. The Pension Protection Act of 1987 created a single-employer revolving fund (fund 7)
that is credited with all premiums in excess of $8.50 per participant, including all penalties and interest
charged on these amounts, and its share of earnings from investments. This fund may not be used to pay
PBGC’s administrative costs or the benefits of any plan terminated prior to October 1, 1988, unless no other
amounts are available.
The trust funds include assets (e.g., pension plan investments) PBGC assumes (or expects to assume) once a
terminated plan has been trusteed, and related investment income. These assets generally are held by
custodian banks. The trust funds support the operational functions of PBGC.
The trust funds reflect accounting activity associated with:
1) trusteed plans — plans for which PBGC has legal responsibility — the assets and liabilities are reflected
   separately on PBGC’s Statements of Financial Position, the income and expenses are included in the
   Statements of Operations and Changes in Net Position, and the cash flows from these plans are included
   in the Statements of Cash Flows.
2) plans pending termination and trusteeship — plans for which PBGC has begun the process for
   termination and trusteeship by fiscal year-end — the assets and liabilities for these plans are reported as a
   net amount on the liability side of the Statements of Financial Position under “Present value of future
   benefits, net.” For these plans, the income and expenses are included in the Statements of Operations
   and Changes in Net Position, but the cash flows are not included in the Statements of Cash Flows.
3) probable terminations — plans that PBGC determines are likely to terminate and be trusteed by
   PBGC — the assets and liabilities for these plans are reported as a net amount on the liability side of the
   Statements of Financial Position under “Present value of future benefits, net.” The accrued loss from
   these plans is included in the Statements of Operations and Changes in Net Position as part of “Losses
   from completed and probable terminations.” The cash flows from these plans are not included in the
   Statements of Cash Flows. PBGC cannot exercise legal control over a plan’s assets until it becomes
   trustee.

ALLOCATION OF REVOLVING AND TRUST FUNDS
PBGC allocates assets, liabilities, income and expenses to the single-employer and multiemployer programs’
revolving and trust funds to the extent that such amounts are not directly attributable to a specific fund.
Revolving fund investment income is allocated on the basis of each program’s average cash and investments
available during the year, while the expenses are allocated on the basis of each program’s number of ongoing
plans. Revolving fund assets and liabilities are allocated according to the year-end equity of each program’s
revolving funds. Plan assets acquired by PBGC and commingled at PBGC’s custodian bank are credited
directly to the appropriate fund, while the earnings and expenses on the commingled assets are allocated to
each program’s trust funds on the basis of each trust fund’s value, relative to the total value of the
commingled fund.

CASH AND CASH EQUIVALENTS
Cash includes cash on hand and demand deposits. Cash equivalents are investments with original maturities
of one business day and highly liquid investments that are readily convertible into cash within one business
day.




                                                        8
SECURITIES LENDING COLLATERAL
PBGC participates in a securities lending program administered by its custodian bank. The custodian bank
requires initial collateral that equals 102 percent to 105 percent of the securities lent. The collateral is held by
the custodian bank or its agent. The custodian bank either receives cash or non-cash as collateral or returns
collateral to cover mark-to-market changes. Any cash collateral received is invested by PBGC’s investment
agent. In addition to the lending program managed by the custodian bank, some of PBGC’s investment
managers are authorized to invest in securities purchased under resale agreements (an agreement with a
commitment by the seller to buy a security back from the purchaser at a specified price at a designated future
date), and securities sold under repurchase agreements.

INVESTMENT VALUATION AND INCOME
PBGC bases market values on the last sale of a listed security, on the mean of the “bid-and-ask” for nonlisted
securities, or on a valuation model in the case of fixed income securities that are not actively traded. These
valuations are determined as of the end of each fiscal year. Purchases and sales of securities are recorded on
the trade date. In addition, PBGC invests in and discloses its derivative investments in accordance with the
guidance contained in the FASB Accounting Standards Codification Section 815, Derivatives and Hedging.
Investment income is accrued as earned. Dividend income is recorded on the ex-dividend date. Realized
gains and losses on sales of investments are calculated using first-in, first-out for the revolving fund and
weighted average cost for the trust fund. PBGC marks the plan’s assets to market and any increase or
decrease in the market value of a plan’s assets occurring after the date on which the plan is terminated must,
by law, be credited to or suffered by PBGC.

SECURITIES PURCHASED UNDER RESALE AGREEMENTS
Securities purchased under resale agreements are agreements whereby the purchaser agrees to buy securities
from the seller, and subsequently sell them back at a pre-agreed price and date. Those greater than one day
are reported under “Fixed maturity securities” as “Securities purchased under resale agreements” in the Note
3 table entitled “Investments of Single-Employer Revolving Funds and Single-Employer Trusteed Plans,” on
page 68. Resale agreements that mature in one day are included in “Cash and cash equivalents” which are
reported on the Statements of Financial Position.

SPONSORS OF TERMINATED PLANS
The amounts due from sponsors of terminated plans or members of their controlled group represent the
settled, but uncollected, claims for employer liability (underfunding as of date of plan termination) and for
contributions due their plan less an allowance for estimated uncollectible amounts. PBGC discounts any
amounts expected to be received beyond one year for time and risk factors. Some agreements between
PBGC and plan sponsors provide for contingent payments based on future profits of the sponsors. The
Corporation will report any such future amounts in the period they are realizable. Income and expenses
related to amounts due from sponsors are reported in the underwriting section of the Statements of
Operations and Changes in Net Position. Interest earned on settled claims for employer liability and due and
unpaid employer contributions (DUEC) is reported as “Income: Other.” The change in the allowances for
uncollectible employer liability and DUEC is reported as “Expenses: Other.”

PREMIUMS
Premiums receivable represent the plan reported premiums owed, and the PBGC estimated amounts not
collected, for plans that have a plan year commencing before the end of PBGC’s fiscal year and past due

                                                         9
premiums deemed collectible, including penalties and interest. The liability for unearned premiums
represents annual premium fees which have been received in advance of the period in which they will be
earned by PBGC. They remain as liabilities until such time as they are ratably earned over the period of time
to which the premium applies. “Premium income, net” represents actual and estimated revenue generated
from defined benefit pension plan premium filings as required by Title IV of ERISA less bad debt expense
for premiums, interest, and penalties (see Note 11).

CAPITALIZED ASSETS
Capitalized assets include furniture and fixtures, electronic processing equipment and internal-use software.
This includes costs for internally developed software incurred during the application development stage
(system design including software configuration and software interface, coding, testing including parallel
processing phase). These costs are shown net of accumulated depreciation and amortization.

PRESENT VALUE OF FUTURE BENEFITS (PVFB)
The PVFB is the estimated liability for future pension benefits that PBGC is or will be obligated to pay the
participants of trusteed plans and the net liability for plans pending termination and trusteeship. The PVFB
liability (including trusteed plans as well as plans pending termination and trusteeship) is stated as the actuarial
present value of estimated future benefits less the present value of estimated recoveries from sponsors and
members of their controlled group and the assets of plans pending termination and trusteeship as of the date
of the financial statements. PBGC also includes the estimated liabilities attributable to plans classified as
probable terminations as a separate line item in the PVFB (net of estimated recoveries and plan assets).
PBGC uses assumptions to adjust the value of those future payments to reflect the time value of money (by
discounting) and the probability of payment (by means of decrements, such as for death or retirement).
PBGC also includes anticipated expenses to settle the benefit obligation in the determination of the PVFB.
PBGC’s benefit payments to participants reduce the PVFB liability.
The values of the PVFB are particularly sensitive to changes in underlying estimates and assumptions. These
estimates and assumptions could change and the impact of these changes may be material to PBGC’s
financial statements (see Note 6).
(1) Trusteed Plans – represents the present value of future benefit payments less the present value of
expected recoveries (for which a settlement agreement has not been reached with sponsors and members of
their controlled group) for plans that have terminated and been trusteed by PBGC prior to fiscal year-end.
Assets are shown separately from liabilities for trusteed plans.
(2) Pending Termination and Trusteeship – represents the present value of future benefit payments less the
plans’ net assets (at fair value) anticipated to be received and the present value of expected recoveries (for
which a settlement agreement has not been reached with sponsors and members of their controlled group)
for plans for which termination action has been initiated and/or completed prior to fiscal year-end. Unlike
trusteed plans, the liability for plans pending termination and trusteeship is shown net of plan assets.
(3) Settlements and Judgments – represents estimated liabilities related to settled litigation.
(4) Net Claims for Probable Terminations – In accordance with the FASB Accounting Standards
Codification Section 450, Contingencies, PBGC recognizes net claims for probable terminations which
represent PBGC’s best estimate of the losses, net of plan assets, and the present value of expected recoveries
(from sponsors and members of their controlled group) for plans that are likely to terminate in the future.
The PBGC threshold for recognition of net claims for probable termination is $50 million or more of
underfunding. These estimated losses are based on conditions that existed as of PBGC’s fiscal year-end.
Management believes it is likely that one or more events subsequent to PBGC’s fiscal year-end will occur,
confirming the loss.

                                                        10
Criteria used for classifying a specific single-employer plan as a probable termination include, but are not
limited to, one or more of the following conditions: the plan sponsor is in liquidation or comparable state
insolvency proceeding with no known solvent controlled group member; sponsor has filed or intends to file
for distress plan termination and the criteria will likely be met; or PBGC is considering the plan for
involuntary termination. In addition, management takes into account other economic events and factors in
making judgments regarding the classification of a plan as a probable termination. These events and factors
may include, but are not limited to: the plan sponsor is in bankruptcy or has indicated that a bankruptcy
filing is imminent; the plan sponsor has stated that plan termination is likely; the plan sponsor has received a
going concern opinion from its independent auditors; or the plan sponsor is in default under existing credit
agreement(s).
In addition, a reserve for small unidentified probable losses and incurred but not reported (IBNR) claims is
recorded based on an actuarial loss development methodology (ratio method) (see Note 6).
(5) PBGC identifies certain plans as high-risk if the plan sponsor is in Chapter 11 proceedings or the
sponsor’s senior unsecured debt is rated CCC+/Caa1 or lower by S&P or Moody’s respectively. PBGC
specifically reviews each plan identified as high-risk and classifies those plans as probable if, based on
available evidence, PBGC concludes that plan termination is likely (based on criteria described in (4) above).
Otherwise, high-risk plans are classified as reasonably possible.
(6) In accordance with the FASB Accounting Standards Codification Section 450, PBGC’s exposure to losses
from plans of companies that are classified as reasonably possible is disclosed in the footnotes. In order for a
plan sponsor to be specifically classified as reasonably possible, it must first have $5 million or more of
underfunding, as well as meet additional criteria. Criteria used for classifying a company as reasonably
possible include, but are not limited to, one or more of the following conditions: the plan sponsor is in
Chapter 11 reorganization; funding waiver pending or outstanding with the Internal Revenue Service; sponsor
missed minimum funding contribution; sponsor’s bond rating is below-investment-grade for Standard &
Poor’s (BB+) or Moody’s (Ba1); or sponsor has no bond rating but the Dun & Bradstreet Financial Stress
Score is below the threshold considered to be investment grade (see Note 9).

PRESENT VALUE OF NONRECOVERABLE FUTURE FINANCIAL ASSISTANCE
In accordance with Title IV of ERISA, PBGC provides financial assistance to multiemployer plans, in the
form of loans, to enable the plans to pay guaranteed benefits to participants and reasonable administrative
expenses. These loans, issued in exchange for interest-bearing promissory notes, constitute an obligation of
each plan.
The present value of nonrecoverable future financial assistance represents the estimated nonrecoverable
payments to be provided by PBGC in the future to multiemployer plans that will not be able to meet their
benefit obligations. The present value of nonrecoverable future financial assistance is based on the difference
between the present value of future guaranteed benefits and expenses and the market value of plan assets,
including the present value of future amounts expected to be paid by employers, for those plans that are
expected to require future assistance. The amount reflects the rates at which, in the opinion of management,
these liabilities (net of expenses) could be settled in the market for single-premium nonparticipating group
annuities issued by private insurers (see Note 7).
A liability for a particular plan is included in the “Present Value of Nonrecoverable Future Financial
Assistance” when it is determined that the plan is currently, or will likely become in the future, insolvent and
will require assistance to pay the participants their guaranteed benefit. In accordance with the FASB
Accounting Standards Codification Section 450, Contingencies, PBGC recognizes net claims for probable
insolvencies for plans that are likely to become insolvent and may require future financial assistance.
Projecting a future insolvency requires considering several complex factors, such as an estimate of future cash
flows, future mortality rates, and age of participants not in pay status.

                                                       11
Each year, PBGC analyzes insured multiemployer plans to identify those plans that are at risk of becoming
claims on the insurance program. Regulatory filings with PBGC and the other ERISA agencies are important
to this analysis and determination of risk. In general, if a terminated plan’s assets are less than the present
value of its liabilities, PBGC considers the plan a probable risk of requiring financial assistance in the future.
PBGC also analyzes ongoing multiemployer plans (i.e., plans that continue to have employers making regular
contributions for covered work) to determine whether any such plans may be probable or possible claims on
the insurance program. In conducting this analysis each year, PBGC examines plans that are chronically
underfunded, have poor cash flow trends, a falling contribution base, and that may lack a sufficient asset
cushion to weather income losses. A combination of these factors, or any one factor that is of sufficient
concern, leads to a more detailed analysis of the plan’s funding and the likelihood that the contributing
employers will be willing and able to maintain the plan.
PBGC utilizes specific criteria for insolvent (PBGC’s insurable event for multiemployer plans), probable, and
reasonably possible classification of multiemployer plans. The criteria are as follows:
   Any multiemployer plans currently receiving financial assistance are classified as insolvent.
   Terminated, underfunded multiemployer plans (i.e., “wasting trusts”) are classified as probable.
   Ongoing multiemployer plans projected to become insolvent:
        o    within ten years are classified as probable,
        o    from ten to twenty years are classified as reasonably possible.
In general, the date of insolvency is estimated by projecting plan cash flows using PBGC’s actuarial
assumptions for terminated plans, but also considered are projections based on other assumptions, such as
those used by the plan actuary.
PBGC periodically reviews important accounting policies. Given the complexities and changes in the
economy and in multiemployer plans in recent years, PBGC decided to re-examine the policy and procedures
used to quantify the level of liability under the ME guarantee program, to determine whether any changes
should be made. After a review that involved a national independent financial advisory firm and included
possible alternatives, PBGC decided to retain our current policy and procedures. PBGC will continue to
review multiemployer policy and procedures in the future.
The present value of nonrecoverable future financial assistance is presented in the Liability section of the
Statements of Financial Position (see Note 7).

SECURITIES SOLD UNDER REPURCHASE AGREEMENTS
Securities sold under repurchase agreements are agreements with a commitment by the seller to buy a security
back from the purchaser at a specified price and designated future date. These agreements represent
collateralized short-term loans for which the collateral may be a treasury security, money market instrument,
federal agency security, or mortgage-backed security. On the Statements of Financial Position, securities sold
under repurchase agreements are reported as a liability, “Securities sold under repurchase agreements” at the
amounts at which the securities will be subsequently reacquired.

ADMINISTRATIVE EXPENSES
These operating expenses (for either the single-employer or multiemployer insurance programs) are amounts
paid and accrued for services rendered or while carrying out other activities that constitute PBGC’s ongoing
operations, e.g., payroll, contractual services, office space, material and supplies, etc. The expense allocation
methodology fully captures the administrative expenses attributable to either the single-employer or

                                                        12
multiemployer insurance programs. In Fiscal Year 2013, PBGC has revised its administrative expense
allocation methodology to ensure each insurance program continues to receive its fair share of administrative
expenses. This revision was made to capture a more consistent and reliable allocation. All indirect
administrative expenses associated with the SE and ME programs are being allocated using the number of
ongoing plans in each program.

OTHER EXPENSES
These expenses represent an estimate of the net amount of receivables deemed to be uncollectible during the
period. The estimate is based on the most recent status of the debtor (e.g., sponsor), the age of the
receivables and other factors that indicate the element of uncollectibility in the receivables outstanding.

LOSSES FROM COMPLETED AND PROBABLE TERMINATIONS
Amounts reported as losses from completed and probable terminations represent the difference as of the
actual or expected date of plan termination (DOPT) between the present value of future benefits (including
amounts owed under Section 4022(c) of ERISA) assumed, or expected to be assumed, by PBGC, less related
plan assets and the present value of expected recoveries from sponsors and members of their controlled
group (see Note 12). When a plan terminates, the previously recorded probable net claim is reversed and
newly estimated DOPT plan assets, recoveries and PVFB are netted and reported on the line “PVFB - Plans
pending termination and trusteeship” (this value is usually different than the amount previously reported),
with any change in the estimate being recorded in the Statements of Operations and Changes in Net Position.
In addition, the plan’s net income from date of plan termination to the beginning of PBGC’s fiscal year is
included as a component of losses from completed and probable terminations for plans with termination
dates prior to the year in which they were added to PBGC’s inventory of terminated plans.

ACTUARIAL ADJUSTMENTS AND CHARGES (CREDITS)
PBGC classifies actuarial adjustments related to insurance based changes in method and the effect of
experience as underwriting activity; actuarial adjustments are the result of the movement of plans from one
valuation methodology to another, e.g., nonseriatim (calculating the liability for the group) to
seriatim (calculating separate liability for each person), and of new updated data (e.g., deaths, revised
participant data). Actuarial charges (credits) are related to changes in interest rates and expected interest is
classified as financial activity. These adjustments and charges (credits) represent the change in the PVFB that
results from applying actuarial assumptions in the calculation of future benefit liabilities (see Note 6).

DEPRECIATION AND AMORTIZATION
PBGC calculates depreciation on the straight-line basis over estimated useful lives of 5 years for equipment
and 10 years for furniture and fixtures. PBGC calculates amortization for capitalized software, which
includes certain costs incurred for purchasing and developing software for internal use, on the straight-line
basis over estimated useful lives not to exceed 5 years, commencing on the date that the Corporation
determines that the internal-use software is implemented. Routine maintenance and leasehold improvements
(the amounts of which are not material) are charged to operations as incurred. Capitalization of software cost
occurs during the development stage and costs incurred during the preliminary project and post-
implementation stages are expensed as incurred.




                                                      13
PRIOR YEAR RECLASSIFICATION
In FY 2012, cash associated with the foreign currency exchange was recorded to Fixed maturity securities on
the Statements of Financial Position, and the Payments for purchases of investments on the Statements of
Cash Flows. Beginning FY 2013, PBGC adopted a new policy for cash associated with foreign currency
exchange is to be recorded to Cash and cash equivalents. This resulted in an immaterial increase to Cash and
cash equivalents of $15 million and a corresponding decrease to Fixed maturity securities from what was
previously reported in the FY 2012 Statements of Financial Position. This resulted in an increase of $15
million and a corresponding net decrease to Payments for purchases of investments from what was
previously reported in the FY 2012 Statements of Cash Flows. These changes were reclassified within the FY
2012 Statements of Financial Position and FY 2012 Statements of Cash Flows, and have no impact on FY
2012 net position.


N O TE 3 : I NV E S TM E N TS

Premium receipts are invested through the revolving fund in U.S. Treasury securities. The trust funds include
assets PBGC assumes or expects to assume with respect to terminated plans (e.g., recoveries from sponsors)
and investment income thereon. These assets generally are held by custodian banks. The basis and market
value of the investments by type are detailed below as well as related investment profile data. The basis
indicated is cost of the asset if assumed after the date of plan termination or the market value at date of plan
termination if the asset was assumed as a result of a plan’s termination. PBGC marks the plan’s assets to
market and any increase or decrease in the market value of a plan’s assets occurring after the date on which
the plan is terminated must, by law, be credited to or suffered by PBGC. Investment securities denominated
in foreign currency are translated into U.S. dollars at the prevailing exchange rates at period end. Purchases
and sales of investment securities, income, and expenses are translated into U.S. dollars at the prevailing
exchange rates on the respective dates of the transactions. The portfolio does not isolate that portion of the
results of operations resulting from changes in foreign exchange rates of investments from the fluctuations
arising from changes in market prices of securities held. Such fluctuations are included with the net realized
and unrealized gain or loss on investments. For PBGC’s securities, unrealized holding gains and losses are
both recognized by including them in earnings. Unrealized holding gains and losses measure the total change
in fair value – consisting of unpaid interest income earned or unpaid accrued dividend and the remaining
change in fair value from holding the security.
To Be Announced (TBA) and Bond Forward transactions are recorded as regular buys and sells of
investments and not as derivatives. TBA is a contract for the purchase or sale of mortgage-backed securities
to be delivered on a future date. The term TBA is derived from the fact that the actual mortgage-backed
security that will be delivered to fulfill a TBA trade is not designated at the time the trade is made. The
securities are to be announced 48 hours prior to the established trade settlement date. TBAs are issued by
FHLMC, FNMA, and GNMA. In accordance with FASB Accounting Standards Codification Section 815,
Derivatives and Hedging, TBA and Bond Forward contracts are deemed regular way trades as they are completed
within the time frame generally established by regulations and conventions in the market place or by the
exchange on which they are executed. Thus, recording of TBA and Bond Forward contracts recognizes the
acquisition or disposition of the securities at the full contract amounts on day one of the trade.
Bond forwards and TBAs are reported to “Receivables, net – Sale of securities” and “Due for purchases of
securities” from derivative contracts receivables and payables. As of September 30, 2013, Bond Forwards
receivable was approximately $133 million and TBA’s receivable was approximately $175 million. In
addition, as of September 30, 2013, Bond Forwards payable was approximately $145 million and TBA’s were
approximately $576 million.



                                                       14
15
INVESTMENTS OF SINGLE-EMPLOYER REVOLVING FUNDS
AND SINGLE-EMPLOYER TRUSTEED PLANS
                                                                       September 30,                      September 30,
                                                                             2013                              2012
                                                                                  Market                              Market
(Dollars in millions)                                                  Basis       Value                 Basis          Value
Fixed maturity securities:
   U.S. Government securities                                        $22,141        $22,132          $21,122           $23,629
   Commercial paper/securities purchased                                  54             54               442              442
    under resale agreements
   Asset backed securities                                             2,937          2,999             3,350            3,509
   Pooled funds
        Domestic                                                       1,239           1,131            1,138            1,197
        International                                                   495             503                 0 *               0 *
        Global/other                                                       0              0                 0 *               0 *
   Corporate bonds and other                                           9,840         10,309             9,798           11,073
   International securities                                           10,211         10,068             8,429            9,100
  Subtotal                                                            46,917         47,196           44,279            48,950
Equity securities:
   Public
   Domestic
          equity                                                       2,168          2,719             2,047            2,417
   International                                                       1,291          1,469               575              670
   Private
   Pooled equity
           funds
        Domestic                                                       5,519          8,740             7,440            9,642
        International                                                  5,731          9,389             5,805            8,733
        Global/other                                                       0 *            0 *               1                 1
   Subtotal                                                           14,709         22,317           15,868            21,463
Private equity                                                         1,355          1,228             1,398            1,339
Real estate and real estate investment trusts                          2,364          2,373               445              878
Insurance contracts and other investments                                 35             28                84                77
Total**                                                             $65,380         $73,142    ***   $62,074           $72,707

* Less than $500,000
** Total includes securities on loan at September 30, 2013, and September 30, 2012, with a market value of $4,230 million and $4,298
million, respectively.
*** This total of $73,142 million of investments at market value represents the single-employer assets only.




INVESTMENTS OF MULTIEMPLOYER REVOLVING FUNDS AND MULTIEMPLOYER TRUSTEED PLANS
                                                                       September 30,                      September 30,
                                                                             2013                              2012
                                                                                  Market                              Market
(Dollars in millions)                                                  Basis       Value                 Basis          Value
Fixed maturity securities:
   U.S. Government securities                                         $1,626         $1,632            $1,568           $1,767
Equity securities                                                          0               0                0                 0
Total                                                                 $1,626         $1,632            $1,568           $1,767


                                                               16
           INVESTMENT PROFILE
                                                                                September 30,
                                                                            2013           2012
          Fixed Income Assets
          Average Quality                                                     AA            AA
          Average Maturity (years)                                           13.3          14.0
          Duration (years)                                                    8.5           9.3
          Yield to Maturity (%)                                               3.4           2.7
          Equity Assets
          Average Price/Earnings Ratio                                       20.1          15.6
          Dividend Yield (%)                                                  2.6           2.6
          Beta                                                               1.06          1.03



DERIVATIVE INSTRUMENTS
PBGC assigns investment discretion and grants specific authority to all of its investment managers to invest
according to specific portfolio investment guidelines PBGC has established. PBGC further limits the use of
derivatives by investment managers through tailored provisions in the investment guidelines with investment
managers consistent with PBGC’s investment policy statement and overall risk tolerance. These investment
managers, who act as fiduciaries to PBGC, determine when it may or may not be appropriate to utilize
derivatives in the portfolio(s) for which they are responsible. Investments in derivatives carry many of the
same risks of the underlying instruments and carry additional risks that are not associated with direct
investments in the securities underlying the derivatives.
Risks may arise from the potential inability to terminate or sell derivative positions, although derivative
instruments are generally more liquid than physical market instruments. A liquid secondary market may not
always exist for certain derivative positions. Over-the-counter derivative instruments also involve
counterparty risk that the other party to the derivative instrument will not meet its obligations.
The use of derivatives by PBGC investment managers is restricted in-so-far as portfolios cannot utilize
derivatives to create leverage in the portfolios for which they are responsible. Thus, the portfolios shall not
utilize derivatives to leverage the portfolio beyond the maximum risk level associated with a fully invested
portfolio of physical securities.
Derivative instruments are used to mitigate risk (e.g., adjust duration or currency exposures), enhance
investment returns, and/or as liquid and cost-efficient substitutes for positions in physical securities. These
derivative instruments are not designated as accounting hedges consistent with FASB Accounting Standards
Codification Section 815, Derivatives and Hedging, which requires an active designation as a prerequisite for any
hedge accounting. PBGC utilizes a no hedging designation which results in the gain or loss on a derivative
instrument to be recognized currently in earnings. Derivatives are accounted for at fair market value in
accordance with the FASB Accounting Standards Codification Section 815, Derivatives and Hedging.
Derivatives are marked to market with changes in value reported as a component of financial income on the
Statements of Operations and Changes in Net Position. PBGC presents all derivatives at fair value on the
Statements of Financial Position.
During fiscal years 2013 and 2012, PBGC, through its investment managers, invested in investment products
that used various U.S. and non-U.S. derivative instruments. Those products included, but are not limited to,
equity index futures, options, money market futures, government bond futures, interest rate, credit default
and total return swaps and swaption contracts, stock warrants and rights, debt option contracts, and foreign
currency forward and option contracts. Some of these derivatives are traded on organized exchanges and
                                                       17
thus bear minimal counterparty risk. The counterparties to PBGC’s non-exchange-traded derivative contracts
are major financial institutions subject to ISDA (International Swaps and Derivatives Association, Inc.)
master agreements. PBGC monitors PBGC’s counterparty risk and exchanges collateral under most
contracts to further support performance by counterparties. Some of PBGC’s non-exchange traded
derivative contracts are centrally cleared through a CFTC-recognized clearinghouse and the required margin
(collateral) is maintained by the clearinghouse to support the performance by counterparties, which are
members of the clearinghouse. A clearinghouse reduces the settlement risks by netting offsetting transactions
between multiple counterparties, by requiring higher levels of collateral deposits or margin requirements
compared to bilateral arrangements. Settlement risks are reduced also by the clearinghouse providing
independent valuation of trades and margin, monitoring the credit worthiness of the clearing firms, and
providing a guarantee fund, which could be used to cover losses that exceed a defaulting clearing firm’s
margin on deposit.
A futures contract is an agreement between a buyer or seller and an established futures exchange
clearinghouse in which the buyer or seller agrees to take or make a delivery of a specific amount of a financial
instrument at a specified price on a specific date (settlement date) in the future. The futures exchanges and
clearinghouses clear, settle, and guarantee transactions occurring through their facilities. Upon entering into a
futures contract, an “initial margin” amount (in cash or liquid securities) of generally one to six percent of the
face value indicated in the futures contract is required to be deposited with the broker. Open futures
positions are marked to market daily. Subsequent payments known as “variation margin” are made or
received by the portfolio dependent upon the daily fluctuations in value of the underlying contract. PBGC
maintains adequate liquidity in its portfolio to meet these margin calls.
PBGC also invests in forward contracts. A forward foreign currency contract is a commitment to purchase
or sell a foreign currency at the settlement date (in the future) at a negotiated rate. Foreign currency forward,
futures, and option contracts may be used as a substitute for cash currency holdings. This is in order to
minimize currency risk exposure to changes in foreign currency exchange rates and to adjust overall currency
exposure to reflect the investment views of the fixed income and equity portfolio managers regarding
relationships between currencies.
A swap is an agreement between two parties to exchange different financial returns on a notional investment
amount. The major forms of swaps traded are interest rate swaps, credit default swaps, and total return
swaps. These swaps are netted for reporting purposes. PBGC uses swap and swaption (an option on a swap)
contracts to adjust exposure to interest rates, fixed income securities exposure, credit exposure, and equity
exposure, and to generate income based on the investment views of the portfolio managers regarding interest
rates, indices and individual issues.
Interest rate swaps involve exchanges of fixed rate and floating rate interest. Interest rate swaps are often
used to alter exposure to interest rate fluctuations, by swapping fixed rate obligations for floating rate
obligations, or vice versa. The counterparties to the swap agree to exchange interest payments on specific
dates, according to a predetermined formula. The payment flows are usually netted against each other, with
one party paying the difference to the other.
A credit default swap is a contract between a buyer and seller of protection against pre-defined credit events.
PBGC may buy or sell credit default swap contracts to seek to increase the portfolio’s income or to mitigate
the risk of default on portfolio securities.
A total return swap is a contract between a buyer and seller of exposures to certain asset classes such as
equities. PBGC may buy or sell total return contracts to seek to increase or reduce the portfolio’s exposure
to certain asset classes.
An option contract is a contract in which the writer of the option grants the buyer of the option the right to
purchase from (call option) or sell to (put option) the writer a designated instrument at a specified price
within a specified period of time.

                                                       18
Stock warrants and rights allow PBGC to purchase securities at a stipulated price within a specified time limit.
For the fiscal years ended September 30, 2013 and 2012, gains and losses from settled margin calls are
reported in Investment income on the Statements of Operations and Changes in Net Position. Securities and
cash are pledged as collateral for derivative contracts (e.g., futures and swaps) are recorded as a receivable or
payable.
Pursuant to the provisions of the FASB Accounting Standards Codification Section 815, Derivatives and
Hedging, this standard requires the disclosure of fair values of derivative instruments and their gains and losses
in its financial statements of both the derivative positions existing at period end and the effect of using
derivatives during the reporting period. The first table below identifies the location of derivative fair market
values (FMV) on the Statements of Financial Position, as well as the notional amounts. The second table
identifies the location of derivative gains and losses on the Statements of Operations and Changes in Net
Position as of September 30, 2013, and September 30, 2012.



   FAIR VALUES OF DERIVATIVE INSTRUMENTS
                                     Asset Derivative
                                                              September 30, 2013                                    September 30, 2012
                                  Statements of Financial                              Statements of Financial
   (Dollars in millions)          Position Location          Notional       FMV        Position Location            Notional          FMV
   Futures                        Derivative Contracts        $ 1,859        $17       Derivative Contracts          $ 1,323           $4

   Swap agreements
     Interest rate swaps          Investments-Fixed             6,536          19      Investments-Fixed              1,904           12
     Credit default swaps         Investments-Fixed             1,702          (6)     Investments-Fixed              2,180           14

   Option contracts               Investments-Fixed                 46          1      Investments-Fixed                146             2

   Forwards - foreign exchange    Investments-Fixed             8,759        (65)      Investments-Fixed              4,650           (27)
                                  Investments-Equity                0          0       Investments-Equity                 0 *           0 *


                                  Liability Derivative
                                                              September 30, 2013                                    September 30, 2012
                                  Statements of Financial                              Statements of Financial
   (Dollars in millions)          Position Location          Notional       FMV        Position Location            Notional          FMV
   Futures                        Derivative Contracts        $ 2,016     $ (13)        Derivative Contracts         $ 2,283      $    (9)

   Option contracts               Derivative Contracts            107           0 *     Derivative Contracts          1,042           (11)


      * Less than $500,000

     Additional information specific to derivative instruments is disclosed in Note 4 – Derivative Contracts, and Note 5 – Fair
     Value Measurements.




                                                               19
EFFECT OF DERIVATIVE CONTRACTS ON THE STATEMENTS OF OPERATIONS
AND CHANGES IN NET POSITION
                                                                                                  Amount of Gain or (Loss)
                                               Location of Gain or                                Recognized in Income on
                                               (Loss) Recognized                                          Derivatives
                                               in Income on                                        Sept. 30,       Sept. 30,
(Dollars in millions)                          Derivatives                                           2013            2012
Futures
  Contracts in a receivable position           Investment Income-Fixed                                  ($142)              $9
  Contracts in a receivable position           Investment Income-Equity                                     0                0
  Contracts in a payable position              Investment Income-Fixed                                     75               69
  Contracts in a payable position              Investment Income-Equity                                     0                0

Swap agreements
  Interest rate swaps                          Investment Income-Fixed                                     36               14
  Credit default swaps                         Investment Income-Fixed                                    (16)              38

Option contracts
  Options purchased (long)                     Investment Income-Fixed                                     17               (14)
  Options purchased (long)                     Investment Income-Equity                                     0                 0
  Options written (sold short)                 Investment Income-Fixed                                     (7)                4
  Options written (sold short)                 Investment Income-Equity                                     0                 0

Forward contracts
  Forwards - foreign exchange                  Investment Income-Fixed                                    (94)              14
                                               Investment Income-Equity                                     0                0

* Less than $500,000

Additional information specific to derivative instruments is disclosed in Note 4 - Derivative Contracts and Note 5 - Fair
Value Measurements.




                                                          20
SECURITIES LENDING
PBGC participates in a securities lending program administered by its custodian bank. The custodian bank
requires initial collateral that equals 102 percent to 105 percent of the securities lent. The collateral is held by
the custodian bank or its agent. The custodian bank either receives cash or non-cash as collateral or returns
collateral to cover mark-to-market changes. Any cash collateral received is invested by PBGC’s investment
agent. In addition to the lending program managed by the custodian bank, some of PBGC’s investment
managers are authorized to invest in securities purchased under resale agreements (an agreement with a
commitment by the seller to buy a security back from the purchaser at a specified price at a designated future
date), and securities sold under repurchase agreements.
The total value of securities on loan at September 30, 2013, and September 30, 2012, was $4,230 million and
$4,298 million, respectively. The total amount of securities available for loan were $26,311 million as of
September 30, 2013 and $26,934 million as of September 30, 2012. The ratio of the market value of the
securities on loan and the market value of the lendable securities is the utilization rate which was relatively
unchanged year over year, moving from 15.9% in September 30, 2012 to 16.1% in September 30, 2013.
U.S. Government securities continue to represent PBGC’s largest amount of assets on loan; of the $4,230
million market value of securities on loan at September 30, 2013, approximately 57 percent are lent U.S.
Government securities. The 2013 year-end lendable balance for U.S. Government securities was
approximately $6,151 million or 23 percent of PBGC’s overall lendable securities balance; while the
September 30, 2012 balance for U.S. Government securities was approximately $7,011 million or 26 percent
of PBGC’s overall lendable security balance. Utilization of U.S. Government securities increased year over
year from 32.7% to 39.2%.
The amount of cash collateral received for these loaned securities was $3,322 million at September 30, 2013,
and $3,425 million at September 30, 2012. These amounts are recorded as assets and are offset with a
corresponding liability. For lending agreements collateralized by securities, no accompanying asset or liability
is recorded, as PBGC does not sell or re-pledge the associated collateral. For those securities lending
activities that PBGC directs through its custodian manager, the corporation chooses to invest proceeds from
securities lending in the Quality A cash collateral pool. PBGC earned $19 million from it’s agency securities
lending programs as of September 30, 2013. Also contributing to PBGC’s securities lending income is its
participation in certain pooled index funds. Net income from securities lending is included in “Investment
income – Fixed” on the Statements of Operations and Changes in Net Position.
PBGC does not have the right by contract or custom to sell or re-pledge non-cash collateral; it is no longer
reported on the Statements of Financial Position. Non-cash collateral, which consists of highly rated debt
instruments, remains at material levels.

REPURCHASE AGREEMENTS
PBGC’s repurchase agreements entitle and obligate us to repurchase or redeem the same or substantially the
same securities that were previously transferred as collateralized securities. In addition, its repurchase
agreements require us to redeem the collateralized securities, before maturity at a fixed determinable price.
As of September 30, 2013, PBGC had $19 million in Repurchase Agreements. This amount represents
maturities of one day and is reported as an asset and included in the “Cash and cash equivalents” balance.
There was no associated liability for these secured borrowings reported as “Securities sold under repurchase
agreements.” PBGC has no restrictions placed on the cash received for all of its outstanding repurchase
agreements as of September 30, 2013.




                                                         21
N O TE 4 : DE RI V AT I V E CO NTR AC TS

PBGC’s derivative financial instruments are recorded at fair value and are included on the Statements of
Financial Position as investments and derivative contracts. Foreign exchange forwards are included in “Fixed
maturity securities”. Swaps are netted for the individual contracts as “Receivables, net – Derivative
contracts” and “Derivative contracts” (liabilities). Bond forwards and TBAs are reclassified as “Receivables,
net – Sale of securities” and “Due for purchases of securities” from derivative contracts receivables and
payables. The amounts subject to credit risk related to derivative instruments are generally limited to the
amounts, if any, by which the counterparty’s obligations exceed our obligations with that counterparty.
PBGC considers this risk remote and does not expect the settlement of these transactions to have a material
effect in our Statements of Operations or Changes in Net Position and Statements of Financial Position.
Amounts in the table below represent the derivative contracts in a receivable position at financial statement
date. Collateral deposits of $103 million, which represent cash paid as collateral on certain derivative
contracts, are shown below.


DERIVATIVE CONTRACTS
                                                                      September 30,                     September 30,
(Dollars in millions)                                                        2013                             2012
Open receivable trades on derivatives:
    Collateral deposits                                                        $103                                $79
    Futures contracts                                                            16                                  4
    Interest rate swaps                                                          77                                  0 *
    Credit default swaps                                                         80                                  0
Total                                                                          $276                                $83

* Less than $500,000




Amounts in the Derivative Contracts table below represent derivative contracts in a payable position at
financial statement date which PBGC reflects as a liability. Collateral deposits of $51 million, which represent
cash received as collateral on certain derivative contracts, are included.
DERIVATIVE CONTRACTS
                                                                      September 30,                     September 30,
(Dollars in millions)                                                        2013                             2012
Open payable trades on derivatives:
    Collateral deposits                                                         $51                                $72
    Futures contracts                                                            13                                  9
    Interest rate swaps                                                          66                                  0
    Credit default swaps                                                         80                                  2
    Options-fixed income                                                          0 *                               11
Total                                                                          $210                                $94

* Less than $500,000




N O TE 5 : F AI R V AL UE ME AS U RE ME N TS
                                                      22
Pursuant to the provisions of the FASB Accounting Standards Codification Section 820, Fair Value
Measurements and Disclosures, the standard provides a consistent definition of fair value and establishes a
framework for measuring fair value in accordance with U.S. GAAP. It does not require the measurement of
financial assets and liabilities at fair value. The standard is intended to increase consistency and comparability
in, and disclosures about, fair value measurements, by giving users better information about how extensively
PBGC uses fair value to measure financial assets and liabilities, the inputs PBGC used to develop those
measurements and the effect of the measurements, if any, on financial condition, results of operations,
liquidity and capital.
Section 820 defines fair value as the price that would be received to sell an asset or paid to transfer a liability
(an “exit price”) in the principal or most advantageous market for an asset or liability in an orderly transaction
between market participants on the measurement date. When PBGC measures fair value for its financial
assets and liabilities, PBGC considers the principal or most advantageous market in which we would transact.
PBGC also considers assumptions that market participants would use when pricing the asset or liability.
When possible, PBGC looks to active and observable markets to measure the fair value of identical, or
similar, financial assets or liabilities. When identical financial assets and liabilities are not traded in active
markets, PBGC looks to market observable data for similar assets and liabilities. In some instances, certain
assets and liabilities are not actively traded in observable markets, and as a result PBGC uses alternative
valuation techniques to measure their fair value.
In addition, Section 820 establishes a hierarchy for measuring fair value. That hierarchy is based on the
observability of inputs to the valuation of a financial asset or liability as of the measurement date. The
standard also requires the recognition of trading gains or losses related to certain derivative transactions
whose fair value has been determined using unobservable market inputs.
PBGC believes that its valuation techniques and underlying assumptions used to measure fair value conform
to the provisions of Section 820. PBGC has categorized the financial assets and liabilities that PBGC carries
at fair value in the Statements of Financial Position based upon the standard’s valuation hierarchy. The
hierarchy gives the highest priority to quoted prices in active markets for identical assets or liabilities (Level
1), the next highest priority to pricing methods with significant observable market inputs (Level 2), and the
lowest priority to significant unobservable valuation inputs (Level 3).
If the inputs used to measure a financial asset or liability cross different levels of the hierarchy, the
categorization is based on the lowest level input that is significant to the fair value measurement.
Management’s assessment of the significance of a particular input to the overall fair value measurement of a
financial asset or liability requires judgment, and considers factors specific to that asset or liability, as follows:.
Level 1 - Financial assets and liabilities whose values are based on unadjusted quoted prices for identical assets
or liabilities in an active market. PBGC’s Level 1 investments primarily included are exchange-traded equity
securities and certain U.S. Government securities.
Level 2 - Financial assets and liabilities whose values are based on quoted prices for similar assets and liabilities
in active markets. PBGC also considers inputs that are observable for the asset or liability, either directly or
indirectly, for substantially the full term of the asset or liability. Level 2 inputs to the valuation methodology
include:
a.   Quoted prices for similar assets or liabilities in active markets. This includes cash equivalents, securities
     lending collateral, U.S. Government securities, asset backed securities, fixed foreign investments,
     corporate bonds, repos, bond forwards, and swaps
b. Quoted prices for identical or similar assets or liabilities in non-active markets. This includes corporate
   stock, pooled funds fixed income, pooled funds equity, and foreign investments equity
c. Pricing models whose inputs are observable for substantially the full term of the asset or liability –
   included are insurance contracts and bank loans

                                                          23
d. Pricing models whose inputs are derived principally from or are corroborated by observable market
   information through correlation or other means for substantially the full term of the asset or liability
Level 3 - Financial assets and liabilities whose values are based on prices or valuation techniques that require
inputs that are both unobservable in the market and significant to the overall fair value measurement. These
inputs reflect PBGC’s judgment about the assumptions that a market participant would use in pricing the
asset or liability, and based on the best available information. The inputs or methodology used for valuing
securities are not necessarily an indication of the risk associated with investing in those securities. PBGC
includes instruments whose values are based on a single source such as a broker, pricing service, or dealer
which cannot be corroborated by recent market transactions. These include fixed maturity securities such as
corporate bonds that are comprised of securities that are no longer traded on the active market and/or not
managed by any asset manager. Equity securities such as corporate stocks are also included, comprised of
securities that are no longer traded on the active market and/or not managed by any asset manager. Real
estate funds that invest primarily in U.S. commercial real estate, are valued based on each underlying
investment within the fund/account; they incorporate valuations that consider the evaluation of financing
and sale transactions with third parties, expected cash flows and market-based information, including
comparable transactions, and performance multiples, among other factors.
The assets and liabilities that PBGC carries at fair value are summarized by the three levels required by
Section 820 in the following table. The fair value of the asset or liability represents the “exit price” – the price
that would be received to sell the asset or paid to transfer the liability.




                                                        24
   FAIR VALUE MEASUREME NTS ON A RECURRING B ASIS AS OF SEPTEMBER 30, 2013

                                                                               Pricing Methods             Pricing Methods              Total Net
                                                                               with Significant            with Significant           Carrying Value
                                                  Quoted Market                   Observable                Unobservable              in Statements
                                                  Prices in Active                  Market                      Market                 of Financial
                                                  Markets (Level 1)            Inputs (Level 2)            Inputs (Level 3)              Position
(Dollars in millions)
Assets
Cash and cash equivalents                                $      559                       $ 3,818                                            $ 4,377
Securities lending collateral                                                               3,322                                               3,322
Investments:
  Fixed maturity securities
    U.S. Government securities                                                             23,764
    Commercial paper/securities
      purchased under resale
      agreements                                                                               54
    Asset backed/Mortgage backed
     securities                                                                            2,999
    Pooled funds
       Domestic                                                   2                          897                      232
       International                                                                         503
       Global/other
    Corporate bonds and other                                     1                       10,308
    International securities                                    (65)                      10,133
  Total fixed maturity securities                               (62)                     48,658                       232                     48,828
 Equity securities:
    Domestic                                                 2,604                          115                          0***
    International                                            1,465                            4
    Pooled funds
       Domestic                                                  16                       8,724
       International                                              2                       9,387
       Global/other                                               0***                        -                         0
 Total equity securities                                     4,087                       18,230                         0***                  22,317
 Private equity                                                                                                     1,228                      1,228
 Real estate and real estate
   investment trusts                                            10                         1,904                      459                       2,373
 Insurance contracts and other
   Investments                                                                                21                         7                         28
Receivables:
 Derivative contracts*                                          16                           260                                                  276
Liabilities
Payables:
 Derivative contracts**                                         13                           197                                                  210

        * Derivative contracts receivables are comprised of open receivable trades on futures, swaps, and collateral deposits. See the Derivative
        Contracts table under Note 4.
        ** Derivative contracts payables are comprised of open payable trades on futures, swaps, options, and collateral deposits. See the Derivative
        Contracts table under Note 4.
        *** Less than $500,000.



                                                                          25
   As of September 30, 2013, there were no significant transfers between Level 1 and Level 2. The end of the
   reporting period is the date used to recognize transfers between levels.


          CHANGES IN LEVEL 3 A SSETS AND LIABILITIE S MEASURED AT FAIR V ALUE ON A
          RECURRING BASIS FOR THE YEAR ENDED SEPTE MBER 30, 2013


                                                                                                                 Change in
                                    Total                                                                        Unrealized
                                  Realized                                                                          Gains
                  Fair Value         and                                                         Fair Value       (Losses)
                                                                        Transfers   Transfers
  (Dollars in         at         Unrealized     Purchases       Sales                                at          Related to
                                                                          Into       Out of
   millions)      September         Gains                                                        September        Financial
                                                                         Level 3     Level 3
                   30, 2012       (Losses)                                                        30, 2013      Instruments
                                  included                                                                         held at
                                 in Income                                                                       September
                                                                                                                 30, 2013 **
Assets:
Pooled funds       $ 277            $(45)                                                         $ 232               $ (45)
  (fixed)
Corporate
  bonds and
  other *               0              0              0          0                                     0                  0
Domestic/Int’l
equity *               7              (1)             4         (15)        5                          0***               1
Private equity     1,339             (79)            54         (86)        0***                   1,228                (68)

Real estate &
real estate
investment           508             (55)            15          (9)                                 459                (55)
trusts

Other *                2              0***           6           (1)                                   7                  0***

   *Assets which are not actively traded in the market place.
   ** Amounts included in this column solely represent unrealized gains and losses and cannot be derived from other
   columns in this table.
   *** Less than $500,000.




                                                                26
Pursuant to FASB Accounting Standards Codification Section 820, Fair Value Measurements and Disclosures –
Investments in Certain Entities That Calculate Net Asset Value per Share; additional disclosures for Investments
priced at Net Asset Value are discussed below.


     INVESTMENTS IN CERTA IN ENTITIES THAT CALCULATE NET ASSET VAL UE PER SHARE
     (OR ITS EQUIVALENT) FOR THE YEAR ENDED
     SEPTEMBER 30, 2013
                                                                                Redemption
                               Fair Value               Unfunded                Frequency (If          Redemption Notice
                              (in millions)           Commitments 1           Currently Eligible)           Period
Real estate (a)                $ 2,373                            $ 92                n/a                     n/a
Private equity (b)                1,228                            246                n/a                     n/a
Pooled funds (c)                 19,763                              0                n/a                     n/a
Total                          $ 23,364                           $338

1 Unfunded   amounts include recallable distributions. A substantial portion of the unfunded commitments is unlikely to
be called.

a.   This class includes 150 real estate investments that invest primarily in U.S. commercial real estate, and to a lesser
     extent, U.S. residential real estate. The fair value of each individual investment in this class has been estimated using
     the net asset value of the PBGC's ownership interest in partners' capital. Generally, these investments do not have
     redemption provisions. Distributions from each fund will be received as the underlying assets of the fund will be
     liquidated over the next ten years or so. In addition, distributions will also include any periodic income distributions
     received. No fund investments in this class are planned to be sold. Individual portfolio investments will be sold
     over time, however, those have not yet been determined.
b.   This class includes 602 private market investments that invest primarily in U.S. buyout and U.S. venture capital
     funds. A small number of those focus on natural resources. These investments do not have redemption
     provisions. Instead, the nature of the investments in this class is that distributions are received through the
     liquidation of the underlying assets of the funds. If these investments were held, it is estimated that the underlying
     assets of the fund would be liquidated over the next twelve years. However, the individual investments that will be
     sold have not yet been determined. The fair value of each individual investment has been estimated using the net
     asset value of the PBGC's ownership interest in partners' capital.
c.   This class includes investments in unit trusts that are intended to match returns of domestic and international
     indices. Units reflect a pro-rata share of the fund’s investments. The per unit net asset value is determined each
     business day based on the fair value of the fund’s investments. Issuances and redemptions are possible daily when a
     per unit value is determined and are based upon the closing per unit net asset value.




                                                             27
PBGC uses recent prices of group annuities to derive the interest factors used to calculate the present value
of future benefit-payment obligations. PBGC determines the interest-factor set that, when combined with a
specified mortality table, produces present values that approximate the prices private insurers would charge to
annuitize the same benefit-payment obligations.
Based on this valuation and in accordance with the provisions of the FASB Accounting Standards
Codification Section 820, Fair Value Measurements and Disclosures, the significant unobservable inputs for the
liability is the interest rate risk for Level 3 fair value measurements. A change in interest factors has an impact
to the calculation of PBGC’s present value of future benefits (PVFB) and the impact will be reflected in the
Change due to interest factors. The table below summarizes the hypothetical results of using a 100 basis
point difference causing the PVFB liability to increase (decrease) with a corresponding decrease (increase) in
the interest rates. Furthermore, any such hypothetical change in the PVFB liability would have a
corresponding effect on “Due to change in interest factors” expense.


   HYPOTHETICAL AND ACT UAL INTERES T RATE SENSITIVITY C ALCULATIONS OF PVFB
   SINGLE-EMPLOYER TRUSTEED PL ANS AND THE MULTIEMP LOYER PROGRAM*
      September 30, 2013              Hypothetical Rates             Actual Rates**          Hypothetical Rates
                                        2.25% for 20 years,           3.25% for 20 years,     4.25% for 20 years,
      (Dollars in millions)                2.32% thereafter              3.32% thereafter        4.32% thereafter

     Single-Employer Program                        $115,375                     $103,170                      $93,062

     Multiemployer Program                             11,527                       9,931                        8,599

     Total                                          $126,902                     $113,101                  $101,661


           *Level 3 Fair Value Measurements
           **Actual rates and PVFB amounts calculated for September 30, 2013 quarterly financial statements.




N O TE 6 : P RE S E NT V AL UE O F F UTU RE BE NE F I TS

The PVFB is the estimated liability for future pension benefits that PBGC is or will be obligated to pay for
trusteed plans and plans pending termination and trusteeship. For financial statement purposes, the net
assets of plans pending termination and trusteeship (including estimated recoveries, assets, and miscellaneous
liabilities) are included in the line item “Plans Pending Termination and Trusteeship.” The estimated losses
on probable future plan terminations are also included in the PVFB. The PVFB liability is stated at the
actuarial present value of estimated future benefit payments.
For FY 2013, PBGC used a 20 year select interest factor of 3.25% followed by an ultimate factor of 3.32%
for as long as benefits are to be paid. In FY 2012, PBGC used a 25-year select interest factor of 3.28%
followed by an ultimate factor of 2.97% for the remaining years. These factors were determined to be those
needed (given the mortality assumptions), to continue to match the survey of annuity prices provided by the
American Council of Life Insurers (ACLI). Both the interest factor and the length of the select period may
vary to produce the best fit with these prices. The prices reflect rates at which, in PBGC’s opinion, the
liabilities (net of administrative expenses) could be settled in the market at September 30, for the respective
year, for single-premium nonparticipating group annuities issued by private insurers. Many factors may affect
these rates, including Federal Reserve policy, changing expectations about longevity risk, and competitive
market conditions.
                                                          28
For FY 2013, PBGC used the Retirement Plan-2000 Combined Healthy (RP-2000 CH) Male and Female
Tables, each set back one year and projected 24 years to 2024 using Scale AA. For September 30, 2012,
PBGC used the same table, set back one year and projected 22 years to 2022 using Scale AA. The number of
years that PBGC projects the mortality table reflects the number of years from the 2000 base year of the table
to the end of the fiscal year (13 years in FY 2013, 12 years in FY 2012) plus PBGC’s calculated duration of its
liabilities (11 years in FY 2013 and 10 years in FY 2012).
The ACLI survey of annuity prices, when combined with the mortality table, provides the basis for
determining the interest factors used in calculating the PVFB. The insurance company prices, when
combined with the stronger mortality table, results in a higher interest factor.
The expense reserve factor for administrative expenses beginning with the FY 2007 valuation is 1.37 percent
plus additional reserves for cases in which plan asset determinations, participant database audits and actuarial
valuations were not yet complete. In addition to the completion of these milestones, PBGC continues to
base the reserve on case size, number of participants and time since trusteeship.
PBGC has in place a policy that allows the Corporation to not decrease a final benefit determination that is
overstated by $5 or less. The effect of this policy is carried through to the calculation of the PVFB liability.
The present values of future benefits for trusteed multiemployer plans for FY 2013 and FY 2012 reflect the
payment of benefits and the changes in interest and mortality assumptions, expected interest and the effect of
experience.
The resulting liability represents PBGC’s best estimate of the measure of anticipated experience under these
programs.
The table on the following page summarizes the actuarial adjustments, charges and credits that explain how
the Corporation’s single-employer program liability for the present value of future benefits changed for the
years ended September 30, 2013 and for the fiscal year ended September 30, 2012.




      RECONCILIATION OF TH E PRESENT VALUE OF F UTURE BENEFITS
      FOR THE YEARS ENDED SEPTEMBER 30, 2013 AND 201 2
                                                                                September 30,


                                                        29
 (Dollars in millions)                                                            2013                               2012
 Present value of future benefits, at beginning
       of year -- Single-Employer, net                                                   $105,635                           $92,953
   Estimated recoveries, prior year                                                           243                               205
   Assets of terminated plans pending trusteeship, net, prior year                            271                               280
   Present value of future benefits at beginning of year, gross                           106,150                            93,438
   Settlements and judgments, prior year                                                      (56)                              (56)
   Net claims for probable terminations, prior year                                        (2,035)                             (833)
   Actuarial adjustments -- underwriting:
     Changes in method and assumptions                                  $ 332                           $     76
     Effect of experience                                                 (733)                              153
     Total actuarial adjustments -- underwriting                          (401)                              229
   Actuarial charges -- financial:
     Expected interest                                                  3,388                            3,927
     Change in interest factors                                            67                           10,718
     Total actuarial charges -- financial                               3,455                           14,645
   Total actuarial charges, current year                                                   3,054                            14,874
   Terminations:
     Current year                                                       4,246                               2,035
     Changes in prior year                                               (132)                                (16)
     Total terminations                                                                    4,114                              2,019
   Benefit payments, current year*                                                        (5,449)                            (5,384)
   Estimated recoveries, current year**                                                      (44)                              (243)
   Assets of terminated plans pending trusteeship, net, current year                      (1,517)                              (271)
   Settlements and judgments, current year                                                    57                                 56
   Net claims for probable terminations:
     Future benefits***                                                 1,166                            7,686
     Estimated plan assets and recoveries from sponsors                  (421)                          (5,651)
     Total net claims, current year                                                          745                              2,035
 Present value of future benefits,
   at end of year -- Single-Employer, net
                                                                                         105,018                            105,635
 Present value of future benefits,
   at end of year -- Multiemployer                                                             0                                  1
 Total present value of future benefits, at end of year, net
                                                                                     $105,018                           $105,636




* The benefit payments of $5,449 million and $5,384 million include $75 million in FY 2013 and $51 million in FY 2012
for benefits paid from plan assets by plans prior to trusteeship.
** On December 31, 2012, PBGC entered into an agreement with United Continental Holdings, Inc. (UAL)
providing for, among other things, the replacement of (i) UAL's contingent obligation to issue up to $500
million principal amount of 8% Contingent Senior Notes if certain financial triggers were met, of which $188
million had been incurred as of December 31, 2012, with $400 million principal amount of new 8% Notes due
2024 and (ii) the $652 million outstanding of UAL's 6% Senior Notes due 2031 with $326 million principal
amount of new 6% Notes due 2026 and $326 million principal amount of new 6% Notes due 2028.

*** The future benefits for probable terminations of $1,166 million and $7,686 million for fiscal years 2013 and 2012,
respectively, include $394 million and $299 million, respectively, for probable terminations not specifically identified and
$772 million and $7,387 million, respectively, for specifically identified probables.




The following table details the assets that make up single-employer terminated plans pending termination and
trusteeship:




                                                                       30
 ASSETS OF SINGLE-EMPLOYER PLANS PENDING TERMINATION
 AND TRUSTEESHIP, NET
                                                              September 30, 2013                                 September 30, 2012
                                                             Basis        Market                                 Basis       Market
 (Dollars in millions)                                                      Value                                              Value
 U.S. Government securities                                  $ 0           $ 0                                   $ 0           $ 0
 Corporate and other bonds                                     703            701                                 108           109
 Equity securities                                             825            840                                 164           170
 Private equity                                                  0              0                                   0             0
 Insurance contracts                                             1              1                                   0 *           0 *
 Other                                                         (52)           (25)                                 (8)           (8)

 Total, net                                                  $1,477               $1,517                         $264                 $271

 * Less than $500,000



NET CLAIMS FOR PROBABLE TERMINATIONS
Factors that are presently not fully determinable may be responsible for these claim estimates differing from
actual experience. Included in net claims for probable terminations is a provision for future benefit liabilities
for plans not specifically identified.
The values recorded in the following reconciliation table have been adjusted to the expected dates of
termination.


     RECONCILIATION OF NE T CLAIMS FOR PROBABL E TERMINATIONS
                                                                                            September 30,
(Dollars in millions)                                                      2013                                        2012
Net claims for probable terminations, at beginning of year                        $ 2,035                                     $ 833
New claims                                                      $ 352                                       $ 1,736
Actual terminations                                               (492)                                        (150)
Deleted probables                                                (1,245)                                      (394)
Change in benefit liabilities                                       95                                           10
Change in plan assets                                                0                                            0
Loss (credit) on probables                                                            (1,290)                                   1,202
Net claims for probable terminations, at end of year                              $      745                                  $ 2,035




The following table itemizes the single-employer probable exposure by industry:


     PROBABLES EXPOSURE B Y INDUSTRY (PRINCIPA L CATEGORIES)


                                                              31
(Dollars in millions)                                                     FY 2013                     FY 2012
Manufacturing                                                           $ 268                         $ 1,900
Health Care                                                                83                             135
Wholesale and Retail Services                                               -                                -
Services                                                                    -                                -
Total                                                                   $ 351                         $ 2,035


For further detail, see Note 2 subpoint (4).
The following table shows what has happened to plans classified as probables. This table does not capture or
include those plans that were not previously classified as probable before they terminated.


     ACTUAL PROBABLES EXP ERIENCE
As Initially Recorded Beginning in 1987
(Dollars in millions)                                            Status of Probables from 1987-2012 at September 30, 2013
                                                           Number of           Percent of                   Net           Percent of
Beginning in 1987, number of plans reported as Probable:       Plans                Plans                 Claim           Net Claim
  Probables terminated                                           367                78%                $29,113                 71%
   Probables not yet terminated or deleted                          0                0                        0                 0
   Probables deleted                                             101                22                  11,974                 29
   Total                                                         468                100%               $41,087               100%




N O TE 7 : MUL TI E MP L O Y E R F I N AN C I AL AS S I S TA N CE

PBGC provides financial assistance to multiemployer defined benefit pension plans in the form of loans.
Since these loans are not generally repaid, an allowance is set up to the extent that repayment of these loans is
not expected.
 NOTES RECEIVABLE MULTIEMPLOYER FINANCIAL ASSISTANCE
                                                                        September 30,                                   September 30,
 (Dollars in millions)                                                       2013                                            2012

 Gross balance at beginning of year                                             $694                                                $599
 Financial assistance payments - current year                                     89                                                   95
 Write-offs related to settlement agreements                                       0                                                    0
 Subtotal                                                                        783                                                  694
 Allowance for uncollectible amounts                                            (783)                                                (694)
 Net balance at end of year                                                     $ 0                                                 $ 0




Losses from financial assistance and probable financial assistance are reflected in the Statements of
Operations and Changes in Net Position and include period changes in the estimated present value of
nonrecoverable future financial assistance. Losses from financial assistance are presented as actuarial charges,
credits, and adjustments for plans that are known to be insolvent as of the valuation date and/or have or
about to begin receiving financial assistance. In addition, a change in the valuation of the liability due to new
data received (e.g., new plan expenses, more recent valuation liabilities, and new withdrawal payment
schedules) is included as financial assistance from insolvent and probable plans on the Statements of


                                                                   32
Operations and Changes in Net Position. This valuation data change is a separate line item from actuarial
adjustments and actuarial charges.
As of September 30, 2013, the Corporation expects 173 multiemployer plans will exhaust plan assets and
need financial assistance from PBGC to pay guaranteed benefits and plan administrative expenses. The
present value of nonrecoverable future financial assistance for these 173 plans is $9,931 million. The 173
plans fall into three categories: (1) plans currently receiving financial assistance; (2) plans that have terminated
but have not yet started receiving financial assistance from PBGC; and (3) ongoing plans (not terminated)
that the Corporation expects will require financial assistance in the future. The latter two categories are
comprised of multiemployer probables as defined by the following classification criteria:
    Probable insolvent plan-terminated future probables – A plan that may still have assets but the
     combination of plan assets and collectible payments of withdrawal liability are projected to be insufficient
     to cover plan benefits plus expenses.
    Probable insolvent plan-ongoing future probables – An ongoing plan with a projected date of insolvency
     within 10 years.


    MULTIEMPLOYER FINANC IAL ASSISTANCE
                                                                        September 30, 2013         September 30, 2012
                                                                      Number of       Net        Number of        Net
(Dollars in millions)                                                  Plans        Liability      Plans        Liability

Plans currently receiving financial assistance                               44       $1,352             41      $1,388


Plans that have terminated but have not yet started receiving                65        1,895             61       1,725
financial assistance (classified as probable)

Ongoing plans (not terminated) that the Corporation expects will             64        6,684             46       3,897
require financial assistance in the future (classified as probable)

Total                                                                       173       $9,931           148       $7,010


Of the 173 plans:
        1) 44 have exhausted plan assets and are currently receiving financial assistance payments from PBGC.
           The present value of future financial assistance payments for these insolvent 44 plans is $1,352
           million.
        2) 65 plans have terminated but have not yet started receiving financial assistance payments from
           PBGC. Terminated multiemployer plans no longer have employers making regular contributions
           for covered work, though some plans continue to receive withdrawal liability payments from
           withdrawn employers. In general, PBGC records a loss for future financial assistance for any
           underfunded multiemployer plan that has terminated. The present value of future financial
           assistance payments to these 65 terminated plans is $1,895 million.
        3) 64 plans are ongoing (i.e., have not terminated), but PBGC expects they will exhaust plan assets and
           need financial assistance within 10 years. In this analysis, PBGC takes into account the current plan
           assets, future income to the plan, the statutory funding rules, and the possibility for future increases

                                                            33
              in contributions. The present value of future financial assistance payments for these 64 ongoing
              plans is $6,684 million.


PRESENT VALUE OF NONRECOVERABLE FUTURE FINANCIAL
ASSISTANCE AND LOSSES FROM FINANCIAL ASSISTANCE
                                                                         September 30,         September 30,
(Dollars in millions)                                                         2013                   2012

Balance at beginning of year                                                $7,010                   $4,475
Changes in allowance:
  Losses from insolvent and probable plans - financial assistance            2,969                    2,466
  Actuarial adjustments                                                         (5)                      (6)
Actuarial charges (credits):
  Due to expected interest                                                      44                      54
  Due to change in interest factors                                              2                     116
Financial assistance granted
   (previously accrued)                                                        (89)                     (95)
Balance at end of period                                                    $9,931                   $7,010


In the table above, actuarial charges are reported separately from Losses from insolvent and probable plans-
financial assistance. As a result, the table includes the following new lines: Actuarial adjustments, Due to
expected interest, and Due to change in interest factors. Insolvent plans are presented within these three new
actuarial charges (credits) lines. Losses from insolvent and probable plans-financial assistance include plans
that terminated but have not yet received financial assistance, ongoing plans that PBGC expects will require
financial assistance in the future, and those insolvent plans that have a change in liability due to new plan data
included in the valuation.




N O TE 8 : ACCO UN TS P A Y ABL E AND AC CRUE D E X P E N S E S

The following table itemizes accounts payable and accrued expenses reported in the Statements of Financial
Position:

                                                                    34
ACCOUNTS PAYABLE AND ACCRUED EXPENSES
                                                                           September 30,                  September 30,
(Dollars in millions)                                                              2013                          2012
Annual leave                                                                          $9                           $  9
Other payables and accrued expenses                                                   68                             70
Accounts payable and accrued expenses                                                $77                           $ 79




N O TE 9 : RE AS O NABL Y P O S S I BL E CO NTI NG E NCI E S

SINGLE-EMPLOYER PLANS
Single-employer plans sponsored by companies whose credit quality is below investment grade pose a greater
risk of being terminated. The estimated unfunded vested benefits exposure amounts disclosed below
represent PBGC’s estimates of the reasonably possible exposure to loss given the inherent uncertainties about
these plans. In rare circumstances for certain large companies, the reasonably possible exposure calculation
reflects the estimated unfunded guaranteed benefit determination rather than the estimated unfunded vested
benefit determination.
In accordance with the FASB Accounting Standards Codification Section 450, Contingencies, PBGC classified a
number of these companies as reasonably possible rather than probable terminations, reflecting the sponsors’
financial condition and other factors did not indicate that termination of their plans was likely. This
classification was done based upon information about the companies as of September 30, 2013. PBGC
criteria for a single-employer plan sponsor to be classified as Reasonably Possible are:
a.   The sponsor(s) or significant member(s) of its controlled group (e.g., a parent or major subsidiary) is in
     reorganization under Title 11 of the United States code.
b. An application for a funding waiver is pending or outstanding with the IRS.
c. A minimum funding contribution has been missed.
d. The sponsor(s) has an S&P senior unsecured credit rating or an issuer credit rating less two notches of
   BB+ or below, or a Moody’s senior unsecured credit rating or a corporate family rating less one notch of
   Ba1 or below. If the controlled group is not rated by Moody’s and S&P, PBGC will use the Dun &
   Bradstreet Financial Stress Score (if available) to classify the controlled group as Reasonably Possible or
   Remote.
e. The sponsor(s) has no bond rating, but analysis indicates that its unsecured debt would be below
   investment grade.
f.   The sponsor(s) meet at least one of the PBGC “high risk” criteria.
g. Other (detailed explanation must be provided and be approved by PBGC’s Contingency Working
   Group).
The estimate of unfunded vested benefits exposure to loss for the single-employer plans of these companies
was measured as of December 31, 2012. The reasonably possible exposure to loss in these plans was
$292,207 million for FY 2013. This is a slight decrease of $2,756 million from the reasonably possible
exposure of $294,963 million in FY 2012. This decrease is primarily due to a decline in the aggregate liability
for plans classified as reasonably possible.
Except in the rare circumstances as indicated earlier in this footnote, the estimate of unfunded vested benefits
exposure to loss is not generally based on PBGC-guaranteed benefit levels, since data is not available to
determine an estimate at this level of precision. PBGC calculated this estimate, as in previous years, by using

                                                       35
the most recent data available from filings and submissions to us for plan years ended on or after December
31, 2011. PBGC adjusted the value reported for liabilities to December 31, 2012, using a select rate of 2.47%
for the first 20 years and 3.22% thereafter and applying the expense load as defined in 29 CFR Part 4044,
Appendix C. The rates were derived in conjunction with the 1994 Group Annuity Mortality Static Table
(with margins) projected to 2022 using Scale AA to approximate annuity prices as of December 31, 2012.
The underfunding associated with these plans could be substantially different at September 30, 2013, because
of the economic conditions that changed between December 31, 2012 and September 30, 2013. PBGC did
not adjust the estimate for events that occurred between December 31, 2012, and September 30, 2013.


The following table by industry itemizes the single-employer reasonably possible exposure to loss:


     REASONABLY PO SSIBLE EXPOSURE TO L OSS BY INDUSTRY
     (PRINCIPAL CATEGORIE S)
(Dollars in millions)                                                       FY 2013    FY 2012
Manufacturing *                                                            $150,564   $155,857
Transportation, Communication and Utilities **                               67,419     67,355
Services                                                                     34,740     29,795
Wholesale and Retail Trade                                                   16,721     17,199
Health Care                                                                   9,576     12,089
Finance, Insurance, and Real Estate                                           8,495      8,463
Agriculture, Mining, and Construction                                         4,692      4,205
Total                                                                      $292,207   $294,963

* Primarily automobile/auto parts and primary and fabricated metals
** Primarily airline


MULTIEMPLOYER PLANS
There are some multiemployer plans that may require future financial assistance. PBGC included amounts in
the liability for the present value of nonrecoverable future financial assistance (see Note 7) for multiemployer
plans that PBGC estimated may require future financial assistance. In addition, PBGC estimated as of
September 30, 2013, that it is reasonably possible that other multiemployer plans may require future financial
assistance in the amount of $36,718 million.
PBGC calculated the future financial assistance liability for each multiemployer plan identified as probable
(see Note 7), or reasonably possible. PBGC used a formula taking the present value of guaranteed future
benefits and expense payments net of any future contributions or withdrawal liability payments. These
amounts were as of the later of September 30, 2013, or the projected (or actual, if known) date of plan
insolvency, discounted back to September 30, 2013. PBGC’s identification of plans that are likely to require
such assistance and estimation of related amounts required consideration of many complex factors, including
estimating future cash flows, future mortality rates, and age of participants not in pay status. These factors
are affected by future events, including actions by plans and their sponsors, most of which are beyond
PBGC’s control. Reasonably possible multiemployer classification is defined as an ongoing plan with a
projected insolvency date between 10 and 20 years from the valuation date.


N O TE 10 : CO M MI TME N T S

PBGC leases its office facility under a commitment that began on January 1, 2005, and expires December 10,
2018. This lease provides for periodic rate increases based on increases in operating costs and real estate
taxes over a base amount. In addition, PBGC is leasing space for field benefit administrators. These leases


                                                                      36
began in 1996 and expire in 2018. The minimum future lease payments for office facilities having
noncancellable terms in excess of one year as of September 30, 2013, are:



    COMMITMENTS: FUTURE LEASE PAYMENTS
(Dollars in millions)
Years Ending                                                            Operating
September 30,                                                            Leases
2014                                                                        $ 21.7
2015                                                                          21.7
2016                                                                          21.6
2017                                                                          21.5
2018                                                                          19.4
Thereafter                                                                     6.0
Minimum lease payments                                                     $111.9

Lease expenses were $19.4 million in FY 2013 and $17.6 million in FY 2012.




N O TE 11 : P RE MI UMS

For both the single-employer and multiemployer programs, ERISA provides that PBGC shall continue to
guarantee basic benefits despite the failure of a plan administrator to pay premiums when due. PBGC
assesses interest and penalties on the unpaid portion of or underpayment of premiums. Interest continues to
accrue until the premium and the interest due are paid. For plan year 2013, the flat-rate premium for single-
employer pension plans was $42 per participant and for multiemployer plans, $12 per participant. For plan
years 2012 and 2011, the flat-rate premiums for single-employer pension plans were $35 per participant and
for multiemployer plans, $9 per participant. PBGC recorded net premium income of $3,053 million that
consisted mainly of $1,385 million in flat-rate premiums, $1,580 million in variable-rate premiums, and $177
million in termination premiums.
Those amounts were offset by a bad debt expense of $94 million. Bad debt expenses include a reserve for
uncollectible premium receivables (including flat, variable, and termination premiums), interest, and penalties.
Net premium income for FY 2012 was $2,734 million and consisted mainly of about $1,215 million in flat-
rate premiums, $1,495 million in variable-rate premiums, and $33 million in termination premiums, offset by
a bad debt expense of $14 million. The termination premium applies to certain plan terminations occurring
after 2005. If a pension plan terminates in a distress termination pursuant to ERISA section 4041(c)(2)(B)(ii)
or (iii), or in a PBGC-initiated termination under ERISA section 4042, the plan sponsor and its controlled
group are liable to PBGC for a termination premium at the rate of $1,250 per plan participant per year for
three years.




                                                      37
The following table presents a year-to-year comparison of key premium information.


   PREMIUMS

 (Dollars in millions)                                  September 30, 2013    September 30, 2012

 Flat-Rate Premium:                                          June 30, 2010         June 30, 2009
 (Dollars in millions)
 Single-Employer                                                    $1,274                $1,123
 Multiemployer                                                         111                    92
 Total Flat-Rate Premium                                             1,385                 1,215
 Variable-Rate Premium                                               1,580                 1,495
 Interest and Penalty Income                                             5                     5
 Termination Premium                                                   177                    33
 Less Changes in the Allowance Reserve for
 Bad Debts for Interest, Penalties,
 and Premiums                                                         (94)                  (14)
 Total                                                              $3,053                $2,734

 Single-Employer                                                    $2,859                $2,623
 Termination Premium                                                   177                    33
 Less Changes in the Allowance Reserve for
 Bad Debts for Interest, Penalties,
 and Premiums                                                         (93)                  (14)
 Total Single-Employer                                               2,943                 2,642
 Multiemployer                                                         111                    92
 Less Changes in the Allowance Reserve for
                                                                        (1)                   0*
 Bad Debts for Interest and Penalties
 Total Multiemployer                                                   110                    92
 Total                                                              $3,053                $2,734


* Less than $500,000




                                                   38
N O TE 12 : L O S S E S F RO M CO MP L E TE D AND P RO B ABL E
TE R MI N ATI O NS

Amounts reported as losses are the present value of future benefits less related plan assets and the present
value of expected recoveries from sponsors. The following table details the components that make up the
losses:


     LOSSES FROM COMPLETE D AND PROBABLE TERMI NATIONS
     SINGLE-EMPLOYER PROGRAM
                                                                           For the Years Ended September 30,
                                                             2013                                                       2012
                                                          Changes in                                                 Changes in
 (Dollars in millions)                     New            Prior Year        Total                    New             Prior Year       Total
                                        Terminations     Terminations                             Terminations      Terminations
 Present value of future benefits             $4,246            $ (132)      $ 4,114                     $2,035             $ (16)    $2,019
 Less plan assets                              2,367                  87       2,454                      1,027                228     1,255
 Plan asset insufficiency                      1,879               (219)       1,660                      1,008              (244)       764
 Less estimated recoveries                         0                (98)         (98)                         0                (39)      (39)
 Subtotal                                      1,8791              (121)       1,758                      1,0081             (205)       803
 Settlements and judgments                                            0*           0*                                            1         1
 Loss (credit) on probables                     (492)2            (798)3     (1,290)4                      (150)2            1,3523     1,2024
 Total                                        $1,387            $ (919)      $ 468                       $ 858              $1,148     $2,006


       * Less than $500,000

       1   Gross amounts for plans terminated during the period, including plans previously recorded as probables.
       2   Net claims for plans previously recorded as probables that terminated.
       3   Includes changes to old and new probables.
       4   See Note 6 - includes $492 million at September 30, 2013, and $150 million at September 30, 2012,
            previously recorded relating to plans that terminated during the period (“Actual terminations”).




                                                                39
N O TE 13 : F I N AN C I AL I NCO ME

The following table details the combined financial income by type of investment for both the single-employer
and multiemployer programs:
INVESTMENT INCOME SINGLE-EMPLOYER AND MULTIEMPLOYER PROGRAMS
                             Single-Employer Multiemployer     Memorandum       Single-Employer    Multiemployer    Memorandum
                                 Program        Program           Total             Program          Program            Total
(Dollars in millions)          Sept. 30, 2013 Sept. 30, 2013   Sept. 30, 2013    Sept. 30, 2012    Sept. 30, 2012   Sept. 30, 2012

Fixed maturity securities:
  Interest earned                    $1,781             $40           $1,821            $1,800               $44            $1,844
  Realized gain                         859              58              917             2,005                36             2,041
  Unrealized gain                    (4,269)           (194)          (4,463)              894                11               905

Total fixed maturity
  securities                          (1,629)           (96)          (1,725)            4,699                91             4,790

Equity securities:
  Dividends earned                       84               0               84                66                 0                66
  Realized gain                       2,476               0            2,476             1,385                 0             1,385
  Unrealized gain (loss)              1,597               0            1,597             2,622                 0             2,622

  Total equity securities             4,157               0            4,157             4,073                 0             4,073

Private equity:
  Distributions earned                   24               0               24                27                 0                27
  Realized gain (loss)                  315               0              315                81                 0                81
  Unrealized gain                       (67)              0              (67)              (66)                0               (66)

  Total private equity                  272               0              272                42                 0                42

Real estate:
  Distributions earned                    0               0                0                 0                 0                 0
  Realized gain (loss)                  (12)              0              (12)                2                 0                 2
  Unrealized gain                       (58)              0              (58)              (23)                0               (23)

  Total real estate                     (70)              0              (70)              (21)                0               (21)

Other income:
  Distributions earned                    3               0                3                 0                 0                 0
  Realized gain (loss)                    7               0                7                 0 *               0                 0*
  Unrealized gain                         1               0                1                (1)                0                (1)

  Total other income                      11              0               11                (1)                0                (1)

Total investment income              $2,741            ($96)          $2,645            $8,792               $91            $8,883

  * Less than $500,000




                                                               40
N O TE 14 : E MP L O YE E B E NE F I T P L ANS

All of PBGC’s permanent full-time and part-time employees are covered by the Civil Service Retirement
System (CSRS) or the Federal Employees Retirement System (FERS). Full-time and part-time employees
with less than five years of service under CSRS and hired after December 31, 1983, are automatically covered
by both Social Security and FERS. Employees hired before January 1, 1984, participate in CSRS unless they
elected and qualified to transfer to FERS.
PBGC’s contribution to the CSRS plan for both FY 2013 and FY 2012 was 7.0 percent of base pay for those
employees covered by that system. For those employees covered by FERS, the Corporation’s contribution
was 11.9 percent of base pay for FY 2013, up from 11.7 percent for FY 2012. In addition, for FERS-covered
employees, PBGC automatically contributes one percent of base pay to the employee’s Thrift Savings
account, matches the first three percent contributed by the employee and matches one-half of the next two
percent contributed by the employee. Total retirement plan expenses amounted to $21 million in FY 2013
and $20 million in FY 2012.These financial statements do not reflect CSRS or FERS assets or accumulated
plan benefits applicable to PBGC’s employees. These amounts are reported by the U.S. Office of Personnel
Management (OPM) and are not allocated to the individual employers. OPM accounts for federal health and
life insurance programs for those eligible retired PBGC employees who had selected federal government-
sponsored plans. PBGC does not offer other supplemental health and life insurance benefits to its
employees.


N O TE 15 : C AS H F L O W S

The following table consists of detailed cash flows from the sales and purchases of investment activity. Sales
and purchases of investments are driven by the level of newly trusteed plans, the unique investment strategies
implemented by PBGC’s investment managers, and the varying capital market conditions in which they invest
during the year. These cash flow numbers can vary significantly from year to year based on the fluctuation in
these three variables.


   INVESTING ACTIVITIES (S INGLE-EMPLOYER
   AND MULTIEMPLOYER PR OGRAMS COMBINED)
                                                                  September 30,
     (Dollars in millions)                                2013                       2012
     Proceeds from sales of investments:
        Fixed maturity securities                     $74,456                     $70,055
        Equity securities                              12,904                       6,120
        Other/uncategorized                             2,859                       1,874
     Memorandum total                                 $90,219                     $78,049

     Payments for purchases of investments:
        Fixed maturity securities                     $(76,266)                   $(69,841)
        Equity securities                              (10,988)                     (6,681)
        Other/uncategorized                             (1,769)                     (1,262)
     Memorandum total                                 $(89,023)                   $(77,784)




                                                     41
The following is a reconciliation between the net income as reported in the Statements of Operations and
Changes in Net Position and net cash provided by operating activities as reported in the Statements of Cash
Flows.


   RECONCILIATION OF NE T INCOME TO NET CAS H PROVIDED
   BY OPERATING ACTIVITIES
                                                           Single-Employer              Multiemployer           Memorandum
                                                               Program                     Program                  Total
                                                              September 30,              September 30,            September 30,
 (Dollars in millions)                                      2013        2012             2013      2012         2013         2012

 Net income (loss)                                       $ 1,761           $(5,876)   $(3,021)   $(2,467)    $(1,260)    $(8,343)
 Adjustments to reconcile net income to net cash
  provided by operating activities:
    Net (appreciation) decline in fair value of
        investments                                         (808)           (6,958)       131       (46)        (677)     (7,004)
    Net gain (loss) of plans pending termination and
        trusteeship                                         (49)              (27)         0          0          (49)        (27)
    Losses (credits) on completed
        and probable terminations                            468             2,006         0         0           468        2,006
    Actuarial charges (credits)                            3,054           14,874          0         0         3,054      14,874
    Benefit payments - trusteed plans                     (5,374)           (5,333)       0*         0*       (5,374)     (5,333)
    Settlements and judgments                                   0*               0*        0         0             0*          0*
    Cash received from plans upon trusteeship                 24              126          0         0            24          126
    Receipts from sponsors/non-sponsors                        (1)            114          0         0            (1)         114
    Amortization of discounts/premiums                        131               99        13        10           144          109
    Changes in assets and liabilities, net of effects
       of trusteed and pending plans:
         (Increase) decrease in receivables                   62             (510)         3         0*          65         (510)
          Increase in present value of
            nonrecoverable future financial assistance                                 2,921      2,535       2,921         2,535
          Increase in unearned premiums                      49               (38)        12         (1)         61           (39)
          Increase (decrease) in accounts payable            (3)               (8)         1          1          (2)           (7)
 Net cash provided (used) by operating activities        $ (686)          $(1,531)    $ 60       $ 32       $ (626)      $(1,499)

 *Less than $500,000



N O TE 16 : L I TI G ATI O N

Legal challenges to PBGC’s policies and positions continued in FY 2013. At the end of the fiscal year, PBGC
had 53 active cases in state and federal courts and 350 bankruptcy and state receivership cases.
PBGC records as a liability on its financial statements an estimated cost for unresolved litigation to the extent
that losses in such cases are probable and estimable in amount. PBGC cannot estimate with any degree of
certainty the possible losses it could incur in the event it does not prevail in these matters.




                                                                     42
N O TE 17 : S UBS E Q UE NT E V E N TS

Management evaluated subsequent events through publication on November 15, 2013, the date the financial
statements were available to be issued. Events or transactions for either the single-employer or
multiemployer program, occurring after September 30, 2013 and before the financial statements were
available to be issued, that provided additional evidence about conditions that existed at September 30, 2013
have been recognized in the financial statements.
For the fiscal year ended September 30, 2013, there were no nonrecognized subsequent events or transactions
to report for both the single-employer and multiemployer programs that provided evidence about conditions
that did not exist at September 30, 2013, and which arose before the financial statements were available to be
issued.




                                                     43
This page intentionally left blank.
Audit of the Pension Benefit Guaranty Corporation’s

 Fiscal Year 2013 and 2012 Financial Statements



      Audit Report AUD-2014-2 / FA-13-93-1




                   Section III


          Management Comments
This page intentionally left blank.
                                                          November 15, 2013


To:           Deborah Stover-Springer
              Acting Inspector General


From:         Josh Gotbaum

Subject:      Response to the Independent Auditor’s Combined Audit Report for the
               FY 2013 Financial Statement Audit

Thank you for the opportunity to comment on the Office of Inspector General’s FY 2013
audit results regarding the agency’s financial statements, internal controls, and
compliance with laws and regulations. As PBGC is responsible for issuing payments of
over $5 billion in benefits each year, managing over $70 billion in investments, and
undergirding America’s pension system, we are pleased that our financial statements
have once again received an unqualified opinion. Audited financial statements are a
cornerstone of accountability.

We agree with your opinion on internal controls, and are committed to addressing the
issues raised in your report. Work continues on the implementation of the corrective
action plans that were developed to address the three material weaknesses and one
significant deficiency. We appreciate your report highlighting areas where we have made
progress. Clearly, much remains to be done. As we continue to make progress, we will
of course keep your office informed.

cc:     Patricia Kelly
        Alice Maroni
        Ann Orr
        J. Jioni Palmer
        Sanford Rich
        Judith Starr
        Martin Boehm
        Theodore Winter
This page intentionally left blank.
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
